<html>
<title> - [H.A.S.C. No. 110-163] DON'T ASK, DON'T TELL REVIEW</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                         [H.A.S.C. No. 110-163] 

                      DON'T ASK, DON'T TELL REVIEW

                               __________

                                HEARING

                               BEFORE THE

                    MILITARY PERSONNEL SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 23, 2008

                                     
             [GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]
                                   
                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

44-634 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 







                    MILITARY PERSONNEL SUBCOMMITTEE

                 SUSAN A. DAVIS, California, Chairwoman
VIC SNYDER, Arkansas                 JOHN M. McHUGH, New York
LORETTA SANCHEZ, California          JOHN KLINE, Minnesota
NANCY BOYDA, Kansas                  THELMA DRAKE, Virginia
PATRICK J. MURPHY, Pennsylvania      WALTER B. JONES, North Carolina
CAROL SHEA-PORTER, New Hampshire     JOE WILSON, South Carolina
NIKI TSONGAS, Massachusetts
               Michael Higgins, Professional Staff Member
                 John Chapla, Professional Staff Member
                     Rosellen Kim, Staff Assistant









                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Wednesday, July 23, 2008, Don't Ask, Don't Tell Review...........     1

Appendix:

Wednesday, July 23, 2008.........................................    47
                              ----------                              

                        WEDNESDAY, JULY 23, 2008
                      DON'T ASK, DON'T TELL REVIEW
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, 
  Chairwoman, Military Personnel Subcommittee....................     1
McHugh, Hon. John M., a Representative from New York, Ranking 
  Member, Military Personnel Subcommittee........................     2

                               WITNESSES

Alva, Staff Sgt. Eric, USMC, (Ret.), Wounded Iraq War Veteran....     7
Coleman, Maj. Gen. Vance, USA, (Ret.), Former Artillery Officer 
  and Division Commander.........................................     4
Darrah, Capt. Joan E., USN, (Ret.), Former Naval Intelligence 
  Officer........................................................     6
Donnelly, Elaine, President, Center for Military Readiness.......     9
Jones, Sgt. Maj. Brian, USA, (Ret.), Former Army Special 
  Operations and Current Business Owner and Chief Executive 
  Officer........................................................    12

                                APPENDIX

Prepared Statements:

    Alva, Staff Sgt. Eric........................................    68
    Coleman, Maj. Gen. Vance.....................................    56
    Darrah, Capt. Joan E.........................................    62
    Davis, Hon. Susan A..........................................    51
    Donnelly, Elaine.............................................    74
    Jones, Sgt. Maj. Brian.......................................   168
    McHugh, Hon. John M..........................................    54

Documents Submitted for the Record:

    DOD Statement Regarding Section 654, Title 10 U.S. Code......   179
    DOD Statement Regarding ``Don't Ask, Don't Tell''............   180

Witness Responses to Questions Asked During the Hearing:
    [There were no Questions asked during the hearing.]
Questions Submitted by Members Post Hearing:
    [There were no Questions submitted post hearing.]
                      DON'T ASK, DON'T TELL REVIEW

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                           Military Personnel Subcommittee,
                          Washington, DC, Wednesday, July 23, 2008.
    The subcommittee met, pursuant to call, at 2:05 p.m. in 
room 2118, Rayburn House Office Building, Hon. Susan A. Davis 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
    CALIFORNIA, CHAIRWOMAN, MILITARY PERSONNEL SUBCOMMITTEE

    Mrs. Davis of California. Good afternoon. Welcome to the 
hearing. Today the Military Personnel Subcommittee will turn 
its attention to an issue that has not been before this body in 
15 years, the issue of gay men and women serving openly in the 
military. At this time of war for our men and women in uniform, 
it has been asked why we would hold this hearing, and clearly 
this subcommittee has a number of competing issues that need 
our attention and that have received it. That is why we pushed 
through needed measures in the House version of the National 
Defense Authorization Act (NDAA) for fiscal year 2009 and have 
held hearings on health care for our service members and their 
families, mental health care for those returning from war and 
quality-of-life issues. This afternoon we are taking a closer 
look at yet another important issue impacting the men and women 
who serve.
    Since 1993, the Department of Defense (DOD) has removed 
approximately 12,600 service members from the military under 
section 654, Title 10 U.S. Code, commonly known as the Don't 
Ask, Don't Tell policy. With this policy comes the loss of 
service members with critical skills needed in the field right 
now, including much-needed language expertise. In my opinion we 
must carefully review a policy that rejects otherwise well-
suited individuals from military service. This is especially 
true at a time when the military is trying to reduce the strain 
on our military by growing the force.
    Our purpose today is to begin a long overdue review of the 
various perspectives of this law and policy and to start a 
conversation about the real-life impact on our service members 
and their families, and, most importantly, on the operational 
readiness of our military.
    This hearing is a bit different from the typical hearings 
conducted by this subcommittee. With two very distinct and 
strongly held views of the law and policy, the subcommittee has 
worked very hard to ensure that both sides are afforded 
identical opportunities to present congressional members with 
the data and real-life examples to support their perspectives. 
While the focus of the hearing is to provide a fair and balance 
forum for debate, I think it is only fair to share my personal 
belief that the current policy should be repealed. I came to 
this position after talking with many service members, active 
duty, Reserve and retired, and concluded that the open service 
of gay men and women need not present an operational problem. 
Many Americans who happen to be gay or lesbian want to answer 
our Nation's call to service, and allowing them to serve in an 
open and honest manner would uphold the ideals of military 
service.
    I would like to enter into the record a statement from the 
Department of Defense regarding Don't Ask, Don't Tell. The 
Department will not be testifying today and has been hesitant 
to address the issue in open session. I regret that the 
Department will not be here since I believe that there are 
issues that would likely be raised where their experience could 
prove to be helpful. However, when pressed to describe how they 
would respond to a change in the law, senior Department of 
Defense officials have indicated that they would comply fully 
with any new legislation, although they do not advocate in 
favor of changing the policy at this time. Without objection, I 
ask the Department of Defense statement be entered into the 
hearing record.
    [The information referred to can be found in the Appendix 
on page 180.]
    Mrs. Davis of California. Because equity is a priority 
characteristic of this hearing, I would remind witnesses that I 
intend to strictly adhere to the time limits for opening 
statements. Each side will be given 15 minutes to make their 
case.
    Before I turn to Mr. McHugh, I would like to extend my 
appreciation to those on both sides of this issue who agree to 
testify. We all know that this is a very difficult issue. It is 
a very personal issue. It is a very emotional issue. And we 
expect that everyone here will be treated with the utmost 
respect during the course of this hearing.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 51.]
    Mrs. Davis of California. Mr. McHugh, I yield to you for 
your opening statement.

  STATEMENT OF HON. JOHN M. MCHUGH, A REPRESENTATIVE FROM NEW 
     YORK, RANKING MEMBER, MILITARY PERSONNEL SUBCOMMITTEE

    Mr. McHugh. Thank you, Madam Chair. Let me echo your words 
of both appreciation and encouragement to everyone involved in 
this hearing today. Certainly we as a subcommittee on both 
sides thank the witnesses for agreeing to be with us, and we 
expect and look forward to a perhaps lively, but nevertheless 
informative and civil discussion of as what the chairlady 
described as one very important issue.
    In 1993, when this subcommittee--and I might add I was here 
as a member of the full committee at that time--and the full 
committee examined proposals to change the policy regarding 
military service by gay and lesbian personnel, that process 
that was undertaken was, I think, fairly described as 
comprehensive, and it was intense. There were no less than 5 
hearings involving 37 witnesses ranging from the Secretary of 
Defense and Chairman of the Joint Chiefs to current as well as 
former military, sociologists, and legal experts who provided a 
wide range of views and perspectives. Not surprisingly, the 
issues that were expressed at that time were complex, and, 
again unsurprisingly, the debate was at times very passionate.
    Interestingly, the chairman of the House Armed Services 
Committee (HASC) at that time supported the change, while the 
chairman of the Personnel Subcommittee did not, which I think 
rather illustrates the divisions that this question can give 
light to. In the end, the committee in the House and the Senate 
concluded, and I want to quote, ``The presence in the Armed 
Forces of persons who demonstrate a propensity or intent to 
engage in homosexual acts would create an unacceptable risk to 
the high standards and morale, good order and discipline and 
unit cohesion that are the essence of the military 
capability.''
    That is the issue that should be at question here today. 
The gentlelady spoke, I think, very accurately to the passions 
that both sides bring to this question. I think we as a 
Congress owe it to both sides and to the American people to 
conduct our inquiries and whatever decisions may come out of 
this process based on that issue defined in the 1993 findings 
of the HASC and the Senate as good order and discipline and 
unit cohesion. That statement, even today, under brims the 
current law, and our challenge is to examine and determine 
whether that conclusion of 1993 remains valid here in 2008.
    Let me note I certainly recognize the chairwoman's long-
standing desire, as she stated it, to repeal the current law, 
and I would hope that she would commit to ensuring that no 
change would take place without a comprehensive, and open 
debate on the full range of issues.
    I want to state I share the chairlady's disappointment that 
thus far the services as a whole have not agreed to step 
forward. I don't see as an individual member how I fully and 
fairly consider this question and, more importantly, the issue 
of changing this question without the input of those in the 
active military who have the heavy responsibility of commanding 
our forces at a time of war. I would hope and encourage both 
the Department of Defense and various services to reconsider 
their reluctance that they have displayed to this point.
    While some will argue that much has changed since 1993, and 
the current law is no longer relevant or needed, one thing has 
not changed in those 15 years. As it was in 1993, the question 
of whether the law is to be changed shall ultimately rest on 
matters of military readiness, morale, good order and 
discipline.
    So, Madam Chair, I join you, as I said earlier, in 
welcoming our witness today, and I truly look forward to their 
testimony. And I yield back.
    Mrs. Davis of California. Thank you, Mr. McHugh.
    [The prepared statement of Mr. McHugh can be found in the 
Appendix on page 54.]
    Mrs. Davis of California. I ask unanimous consent now that 
nonsubcommittee members be allowed to participate in today's 
hearing after all subcommittee members have had an opportunity 
to ask questions. Is there any objection?
    Without objection, nonsubcommittee members will be 
recognized at the appropriate time for five minutes.
    Now I would like to introduce our panel. We will begin with 
witnesses representing the coalition seeking repeal of the 
current law and policy. First will be Major General Vance 
Coleman, United States Army, Retired, former Artillery Officer 
and Division Commander; Captain Joan Darrah, United States 
Navy, Retired, Former Naval Intelligence Officer, and 
Congressman Moran welcomes you to the hearing and thanks you 
for being here; Staff Sergeant Eric Alva, United States Marine 
Corps, Retired, wounded Iraq war veteran. Thank you very much.
    Those witnesses will be followed by the witnesses 
representing the coalition that supports the current law, but 
opposes the Don't Ask, Don't Tell policy, which they view is 
improperly connected to the law: Ms. Elaine Donnelly, 
President, Center for Military Readiness; and Sergeant Major 
Brian Jones, United States Army, Retired, former Army Special 
Operations and current business owner and Chief Executive 
Officer (CEO).
    Welcome to the hearing, and, General Coleman, if you will 
start, the three speakers will have five minutes apiece, and 
then when we move into--Ms. Elaine Donnelly will actually have 
10 minutes, and then Sergeant Jones 5 minutes. We have 15 
minutes per panel.

   STATEMENT OF MAJ. GEN. VANCE COLEMAN, USA, (RET.), FORMER 
            ARTILLERY OFFICER AND DIVISION COMMANDER

    General Coleman. Thank you. Thank you, Madam Chairman.
    Madam Chairman, members of the committee, and my fellow 
witnesses, during my more than 30 years of service to the 
United States, I have seen and experienced what happens when 
second-class citizens--and, conversely, what we can achieve 
when we reverse those views and embrace all of our troops as 
first-class patriots with an important contribution to make.
    I enlisted in the Army when I was 17 in the days before we 
desegregated our unit fighting forces or our park fountains. I 
served in segregated units in the United States and in Europe 
before being selected to attend an integrated leadership 
academy and then on to Officer Candidate School (OCS).
    After Officer Candidate School I was assigned to a combat 
unit. When I reported for duty, however, I was promptly 
reassigned to in an all-black service unit. The message was 
clear: It didn't matter that I was a qualified field artillery 
officer who was qualified to serve in the combat arms unit; it 
only mattered that I was black.
    Madam Chairman, I know what it is like to be thought of as 
second-class, and I know what it is like to have your hard work 
dismissed because of who you are or what you look like. I also 
know the difference made when we place qualifications ahead of 
discrimination and tore down the walls of racial prejudice in 
our fighting forces.
    As an Army commander, I also know how disruptive it would 
be to remove a trained, skilled service member from a unit. It 
is bewildering and counterintuitive to me that we maintain a 
Federal law that says no matter how well a person does his or 
her job, no matter how integral they are to their unit, they 
must be removed, disrespected and dismissed because of who they 
happen to be or who they happen to love. That is why I am 
grateful to have the opportunity today to urge Congress to 
repeal Don't Ask, Don't Tell. The military has shown it excels 
at blending people together from different backgrounds and 
beliefs and putting the mission first. I ask Congress to 
repeal, Don't Ask, Don't Tell and allow the military to benefit 
from having the best and the brightest serve regardless of 
sexual orientation.
    In Korea I was assigned to a field artillery unit that was 
totally integrated. The unit consisted of individuals from all 
walks of life, black, white and brown. There was never a 
problem of unit morale or unit cohesion. The only thing that 
mattered to the soldiers was the ability to perform and whether 
you could be depended upon when the going got tough.
    One thing that I learned while serving in Korea in the 
Korean conflict is that in a 24-hour combat situation, the 
troops are not concerned about who you are or what you believe; 
they only want to know whether or not you can perform.
    Performance would mean the difference between winning or 
losing, living or dying. I soon learned from the senior non-
commissioned officers (NCOs) that the key to success was 
performance. That is true 50 years later, and it will be 100 
years from now.
    As a battery executive officer in Korea, I supervised a 
supervisor first class, who happened to be gay. He was the 
communication chief in our unit. He was in charge of the unit's 
communication, the system setup, the maintenance, and to make 
sure all the systems were working. He was, to put it in plain, 
essential terms, a critical part of that unit. Having to remove 
him from the position and from the Army entirely would have 
harmed our unit's ability to perform its mission.
    This committee should be concerned first and foremost about 
the readiness of Armed Forces and the personnel policies that 
best serve that readiness. And all of us here today know that 
when the Federal Government gives the order, commanders 
reiterate it, and the service members salute and implement it.
    As a combat leader I learned to constantly train my troops 
to adapt to change in combat situations, to change in weapons 
system, to change in terrain. In the 1980's, I was Division 
Commander of the 84th Army Reserve Training Division, testing 
our mobilization planning by establishing new training models. 
Military leadership indeed is about being able to constantly 
adapt. That is why we have the best military in the world, and 
that is why we are better than the outdated arguments that some 
still use to prop up Don't Ask, Don't Tell.
    Don't Ask, Don't Tell hurts military readiness. It 
undermines our commitment to being a Nation where we are all 
equal in the eyes of the law, and it ties the hands of 
commanders who want to welcome and retain America's best and 
brightest into the military fold.
    It is the time, for the sake of our military, to end this 
modern-day prejudice and embrace all of our troops as first 
class patriots with an important mission to make.
    I will close by saying to you unequal treatment to one of 
us is unequal treatment to us all. Thank you.
    Mrs. Davis of California. Thank you, General Coleman.
    [The prepared statement of General Coleman can be found in 
the Appendix on page 56.]
    Mrs. Davis of California. And if you could all make sure to 
speak into the mike, that would be very helpful.
    Captain Darrah.

 STATEMENT OF CAPT. JOAN E. DARRAH, USN, (RET.), FORMER NAVAL 
                      INTELLIGENCE OFFICER

    Captain Darrah. Good afternoon, Chairwoman Davis and 
committee members. Thank you so much for the opportunity to 
testify during this important review of the Don't Ask, Don't 
Tell law.
    My name is Joan Darrah. I joined the Navy in 1972 and 
served for 29-1/2 years. I was an intelligence officer and 
retired in June 2002 at the rank of captain. I was awarded 
three Legions of Merit and three Meritorious Service Medals. My 
final tour of duty was as the officer and enlisted community 
manager where I was responsible for all policies that impacted 
recruiting and retention for the intelligence community. Thus I 
fully understand and appreciate the importance of being able to 
recruit and retain the highest-quality people.
    When I join the Navy, I didn't know that I was gay. By the 
time I realized it, I was well into my Navy career. And 
according to my promotion record and my fitness reports, I was 
making a significant contribution.
    It is only now that I have been retired for six years that 
I fully realize how incredibly stressful it was to live under 
Don't Ask, Don't Tell. For the last many years of my career, 
whenever the admiral would call me into his office, I would be 
99.9 percent certain it was to discuss an operational issue, 
but there was always that fear in the back of my mind that 
somehow I had been outed, and that the admiral was calling me 
in to tell me that I was fired. The constant fear of being 
outed and fired, even though your performance is exceptional, 
is hard to quantify.
    Don't Ask, Don't Tell discourages thousands of talented and 
patriotic citizens from joining the military because, rightly 
so, they refuse to live a lie. This is a tremendous loss to our 
military. When a smart, energetic young person who happens to 
be gay asks me about joining the service, I recommend that they 
do not join. I love the Navy. It is painful for me to encourage 
someone who could contribute so much to take their talents 
elsewhere.
    When I was assigned as the deputy commander and chief of 
staff at the Naval Intelligence Command, I supervised almost 
1,500 people and had several openly gay civilians in my 
command. The morale and productivity of the command was 
extremely high, and these gay employees were judged, like 
everyone else, on their demonstrated ability and performance.
    In September 2001, the true impact of Don't Ask, Don't Tell 
on me personally came into sharp focus. On Tuesday, September 
11th, I was at the Pentagon attending the weekly intelligence 
briefing. During the briefing we watched cable news network 
(CNN) as the planes hit the Twin Towers. Finally at 9:30 my 
meeting was adjourned. When American Flight 77 slammed into the 
Pentagon, I was at the bus stop. As it turned out, the space I 
had been seven minutes earlier was completely destroyed, and 
seven of my coworkers were killed. The reality is that if I had 
been killed, my partner then of 11 years would have been the 
last to know, as I had not dared list her name in any of my 
paperwork or on any of my emergency contact information.
    It was the events of September 11th that made me realize 
that Don't Ask, Don't Tell was taking a much greater toll than 
I had ever admitted. It caused me to refocus my priorities, and 
on 1 June, 2002, one year earlier than I had originally 
planned, I retired.
    Since I have retired, I have come out to many people with 
whom I served, seniors, juniors and coworkers. Many said they 
already knew that I was gay, and, without exception, everyone 
has said they were pleased that I continued to serve.
    Military readiness is achieved by attracting and retaining 
the best and the brightest. Don't Ask, Don't Tell clearly 
undermines the military readiness of our country. When Don't 
Ask, Don't Tell is repealed and replaced with a policy of 
nondiscrimination, many highly qualified young people who 
refuse to live a lie will be much more inclined to join the 
military. Other people, especially younger ones who are likely 
already out to some of their shipmates, will be more apt to 
reenlist, while more senior, older personnel might opt to keep 
their sexual orientation private. At least they will finally be 
able to go to work each day without the fear of being fired 
because someone has discovered they are gay.
    In summary, I care so much about the Navy, and I want our 
military to be the very best, but for us to have the most 
capable and ready military, we must be able to recruit and 
retain the best and the brightest. Don't Ask, Don't Tell stands 
in the way of that goal. Thank you.
    Mrs. Davis of California. Thank you.
    [The prepared statement of Captain Darrah can be found in 
the Appendix on page 62.]
    Mrs. Davis of California. Sergeant Alva. I appreciate the 
fact that everybody is really keeping to the time.

 STATEMENT OF STAFF SGT. ERIC ALVA, USMC, (RET.), WOUNDED IRAQ 
                          WAR VETERAN

    Sergeant Alva. Good afternoon, Ms. Chairwoman and members 
of the committee. My name is Eric Fidelis Alva. I was a staff 
sergeant in the United States Marine Corps. I am honored to 
testify today and to share my experiences with the 
subcommittee. Thank you for holding this hearing.
    I grew up in a military family in Texas. My father served 
in Vietnam, my grandfather in World War II. I guess you could 
say that service was in my blood. I inherited my middle name, 
Fidelis, from my father and grandfather. As you know, the 
Marine credo, Semper Fi is short for Semper Fidelis, always 
faithful. Loyalty is literally my middle name. So I guess you 
could say that serving my country was my calling.
    I joined the military because I wanted to serve. I joined 
the Marines because I wanted a challenge. I was 19 years old, I 
was patriotic, idealistic and also gay.
    For 13 years I served in the Marines Corps. I served in 
Somalia during Operation Restore Hope. I loved the discipline 
and camaraderie. What I hated was concealing part of who I am.
    My military service came to an end on March 21st, 2003. 
Three hours into the invasion of Iraq we had to stop to wait 
for orders. I went back to the Humvee to retrieve something, to 
this day I can't remember what, and as I crossed that dusty 
patch of desert for the third time that day, I triggered a land 
mine.
    I was thrown through the air, landing 10 or 15 feet away 
from the vehicle. The pain was unimaginable. My fellow marines 
were rushing to my aid, cutting away my uniform to assess the 
damage and treat my wounds. I remember wondering why they 
weren't removing my right boot. It wasn't until later that I 
had realized that was because that leg was already gone. When I 
regained consciousness in a hospital outside Kuwait City my 
right leg was gone, my left leg was broken, and my right arm 
permanently damaged. I also had the dubious honor of being the 
first American injured in the Iraq war. I received a Purple 
Heart along with visits from the President and the First Lady. 
I was told I was a hero.
    That land mine may have put an end to my military career 
that day, but it didn't put an end to my secret. That would 
come years later when I realized that I had fought and nearly 
died to secure the rights for others that I myself was not free 
to enjoy. I had proudly served a country that was not proud of 
me. More importantly, my experience just proved all the 
arguments against open service by gays and lesbians.
    I knew I had to share my story. Even under the military's 
Don't Ask, Don't Tell law, I was out to a lot of my fellow 
marines. The typical reaction from my fellow service members: 
So what? I was the same person, I did my job well, and that is 
all they cared about. Today I am godfather to three of those 
men's children.
    Normally I was cautious about whom I divulged my secret to; 
I thought I had to be. Then one evening out with some guys from 
our unit, I let my guard down. One of the guys commented on 
some women in a bar. When my response was less than 
enthusiastic, he asked me jokingly if I was gay. As a matter of 
fact I am, I responded. He swore to keep my secret, but I 
suppose he thought it was just too good a piece of gossip to 
pass up. He was wrong. No one he told cared. The response from 
everyone was the same as it had been from the friends in whom I 
confided: So what? I was still Eric, still one of them, still a 
marine. I was still trusted.
    That was a very powerful thing for me, that I still had 
their trust, because the supporters of Don't Ask, Don't Tell 
are right about one thing: Unit cohesion is essential. What my 
experience proves, they are wrong about how to achieve it. My 
being gay and even many of my colleagues knowing about it 
didn't damage unit cohesion. They put their lives in my hands, 
and when I was injured, they risked their lives to save mine.
    My experience gives me confidence in our military men and 
women. I am confident that just as they are capable of immense 
professionalism and dedication to duty, putting their lives on 
the line every day, our soldiers are equally capable of putting 
aside personal bias and standing shoulder to shoulder with gay, 
lesbian, and bisexual service members. They are there to 
fulfill a mission. This is my unit, and our war. They will do 
their duty.
    As a former marine and patriotic American, I am horrified 
that Don't Ask, Don't Tell forces trained and ready troops to 
chose between serving their country and living openly, a choice 
I myself would have been faced with had a land mine not made it 
for me. I am appalled that Don't Ask, Don't Tell forces the 
involuntary separation of thousands of skilled service members 
during a time of war, threatening our country's military 
readiness for no good reason.
    My experiences serving the military demonstrate that Don't 
Ask, Don't Tell is an outdated, useless law. Since leaving the 
military, the opportunities I have had to speak with Americans, 
both gay and straight, have shown time and again that the 
American people support open service by gay, lesbian and 
bisexual troops. Those who support Don't Ask, Don't Tell claim 
they do so in the interest of unit cohesion, while as a former 
marine, I can tell you what it takes to build unit cohesion: 
Trust.
    Mrs. Davis of California. Sergeant Alva, I am sorry, could 
you finish your remarks very quickly?
    Sergeant Alva. Yes, ma'am.
    I can also tell you that Don't Ask, Don't Tell does nothing 
but undercut the trust and with it our Nation's security. I 
urge the members of the subcommittee to rethink this failed 
law. Thank you.
    Mrs. Davis of California. Thank you very much.
    [The prepared statement of Sergeant Alva can be found in 
the Appendix on page 68.]
    Mrs. Davis of California. Ms. Donnelly.

 STATEMENT OF ELAINE DONNELLY, PRESIDENT, CENTER FOR MILITARY 
                           READINESS

    Ms. Donnelly. Thank you for the opportunity to testify, 
Madam Chairman.
    Mrs. Davis of California. Make sure your microphone is on.
    Ms. Donnelly. I am Elaine Donnelly. I founded the Center 
for Military Readiness in 1993. In that year Bill Clinton 
announced his intent to lift the ban on homosexuals in the 
military. He proposed a concept known as Don't Ask, Don't Tell, 
which Congress rejected.
    In fact, most of the problems we are hearing about today 
are coming about because the Department of Defense--Bill 
Clinton imposed Don't Ask, Don't Tell on the military even 
though the law says something different. If the law had been 
given a name of its own, it would have been called the Military 
Personnel Eligibility Act of 1993, because, you see, it is all 
about eligibility, but it doesn't have a name of its own other 
than the technical name, section 654, Title 10. We support this 
law; we do not support Don't Ask, Don't Tell.
    The law was passed with overwhelming bipartisan majorities, 
and it has been upheld as constitutional several times. The 
only compromise was the dropping of the question, are you 
homosexual? It used to be on induction forms. That question can 
be reinstated at any time, and it should be, because to say 
that you can't ask questions about eligibility is like telling 
a bartender that you cannot serve liquor to people who are 
underage, but you cannot ask them for ID. It makes no sense. It 
is not good policy. But the law is good policy. The law is 
there and it is designed to promote good order and discipline.
    I want to talk about the future. I would like to talk about 
what would happen if you actually repealed this law. The result 
would be devastating because the military doesn't do things 
halfway. If you say that this is in the tradition, the proud 
tradition, of civil rights, which we have seen in our history 
in positive ways, if we say that a sexual minority here on is 
going to have special rights, that means that anybody who 
disagrees is contrary to the zero tolerance policy. It means 
that anybody whose attitudes are different from what is 
advocated by the American Civil Leberties Union (ACLU) and the 
left--the San Francisco left, who want to impose their agenda 
on the military, those people become unacceptable, and they 
would have to eventually be forced out of the military.
    You see, when promotions are denied, that means people get 
the message they cannot stay in the military. We would lose 
thousands of people if they were told under a zero tolerance 
policy that you must accept the new paradigm, which is forced 
cohabitation of men and women with homosexuals in the military, 
forced cohabitation in all branches of the service, all 
communities. I am talking about the infantry, Special 
Operations Forces, Navy SEALs, cramped submarines.
    We are not talking about a Hollywood role here, but we are 
talking about real consequences for real people. If we say that 
this is going to be the new paradigm, we are going to tolerate 
absolutely no dissent, that would put a tremendous, perhaps 
unacceptable, burden on people who do have religious 
convictions or those who simply believe that the policy, the 
law as it is now, is a good idea. They would become 
unacceptable to the military and would be driven out. Some 
people say, ``well, that is okay.'' for the sake of diversity 
we cannot afford to lose so many people if they disagree with 
this policy of forced cohabitation of heterosexuals and 
homosexuals in the military.
    How would enforcement work? Well, if a female soldier 
reports an incident of harassment, she enjoys the presumption 
of truthfulness. But under the new civil rights standard or 
zero tolerance standard, if a male soldier reports or is made 
to feel that there is a sexual atmosphere that is unacceptable, 
the suspicion would be that he has intolerant attitudes. The 
military don't tolerate people with intolerant attitudes. That 
man is probably not going to make a complaint, but if he does, 
he will suffer serious sanctions.
    In the messy disputes that would ensue, commanders are 
supposed to sort all of this out? You know, we have 
difficulties right now with sexual misconduct. We have issues 
with regard to male and female sexual misconduct of various 
kinds. If we want to increase that threefold, then we have a 
new policy that says we are going to have disputes or problems 
between male and male and female and female.
    I invite you to read in my testimony a letter from a young 
woman named Cynthia Yost, who served in the Army, the 
experience she had with an assault. I invite you to think about 
her suggestion that when photographs were taken of her and her 
fellow soldiers in the shower, was this the kind of thing that 
we want to see in the future, especially in the days of the 
iPhone and the Internet? Do we want to have a sexualized 
atmosphere in our Armed Forces, all branches, submarines, 
infantry, all the rest of it?
    There is not enough time to go into all the various kinds 
of things that would ensue, but perhaps I can talk about a 
couple of things. Number one, you will not get full information 
about what is happening in the field. We have had an incident 
just recently, a Navy chaplain who abused midshipmen and two 
other members of the service. He was Human Immunodeficiency 
Virus (HIV) positive, he abused his authority, and yet the 
record of his court martial doesn't show homosexual conduct. It 
shows the worst things that he did. But you will not get a 
feedback of what is happening in the field because as even Navy 
Times agreed we are not getting adequate information from the 
Department of Defense.
    You should ask about cases like Lamar Dalton, the soldier 
who was HIV-positive, infected an 18-year old. You need to 
think about the situation of HIV positivity. We have troops who 
are not deployable because of HIV-positive status. The 
legislation to repeal the law says we should invite in 
everybody who was denied before. What will that do to our 
medical system? How does that encourage trust or help our 
military to have strong discipline and morale?
    If we follow the example of the British military, they are 
now looking at the issue of transgenders in the military. They 
are very much into this model. They are different in their 
culture. They accepted a European court order to accept 
homosexuals in the military. We don't do that in our system. We 
have responsible people, people like you who look at these 
issues. We don't take orders from courts.
    I would like to talk to you if there is time about many of 
the unconvincing arguments for repeal that we have heard. We 
keep hearing about polls. In an article that I wrote for Duke 
University Journal of Gender Law & Policy, I have analyzed 
every one of these reports. Every one of them falls apart under 
closer scrutiny. We don't need to make decisions based on 
polls. For instance, Zogby, they didn't mention the one 
question on the Zogby poll that mattered of military people 
supposedly: Do you agree or disagree with allowing homosexuals 
to serve openly in the military? Only 26 percent agreed. A 
combination of those who disagreed and were neutral was 69 
percent. You did not hear about that poll unless you read the 
article that I wrote about it. The Military Times polls have 
consistently been 57 to 59 percent opposed. The polls are by no 
means an argument for repealing the law.
    Discharges, how many discharges are there? The numbers are 
very small. You have my written testimony. The documentation is 
there. Pregnancy, weight loss standard violations, the 
discharges are much greater numbers.
    Is the Department of Defense not enforcing the law? Well, I 
would agree the Department of Defense has been derelict. They 
have not enforced the law properly when they suggest there is 
nothing against gays and lesbians being in the military based 
on sexual orientation. That is dissembling. The law doesn't 
even say that phrase, ``sexual orientation.'' It is so vague, 
you cannot define it. It is based on conduct. A person who 
engages in that conduct and says so is someone who is not 
eligible to be in the military.
    Do we have shortages in certain categories? Linguists, yes. 
There are ways to resolve that. The number one way would be to 
reinstate that question. Why was the Defense Language Institute 
training people who were not eligible to be in the Armed 
Forces? That is where the problem is. The problem is not with 
the law itself.
    We have heard speculative claims all based on guesstimates 
and suppositions and assumptions. Sixty-five thousand 
homosexuals in the military? Have you looked at that report and 
seen just how flimsy the research is? Use common sense. We are 
talking about common sense. If people who disagree are driven 
out of the military, you are going to lose thousands of people 
in the military. We can't afford that.
    Foreign militaries. We know their experience is very 
different. We know what they do in their military is nothing 
like the demands that we have in our Armed Forces. We have the 
strongest military in the world. Good order and discipline is 
important.
    My recommendation would be support the law, keep the law, 
recommend the Department of Defense enforce it properly. We 
should drop the Don't Ask, Don't Tell regulations put in place 
by Bill Clinton. They are administrative and can be eliminated 
at any time. We need to keep priorities straight. Equal 
opportunity is important, but the needs of the military, our 
military, must come first. It is the only military we have, and 
we have to make sure that policy is the best we can have for 
our brave men and women in the military.
    Thank you.
    Mrs. Davis of California. Thank you.
    [The prepared statement of Ms. Donnelly can be found in the 
Appendix on page 74.]
    Mrs. Davis of California. Please go ahead.

 STATEMENT OF SGT. MAJ. BRIAN JONES, USA, (RET.), FORMER ARMY 
    SPECIAL OPERATIONS AND CURRENT BUSINESS OWNER AND CHIEF 
                       EXECUTIVE OFFICER

    Major Jones. Thank you for the opportunity to testify 
today. I am a retired sergeant major, U.S. Army. I am a Ranger 
first, and I am a Ranger always. The most common attribute I 
see on a military evaluation report is selfless service. I 
chose a career path that placed me in a Ranger battalion. I 
served in Delta Force as a Detachment Sergeant Major in a 
Ranger Regiment.
    Selfless service is what makes a good team great within the 
U.S. military. You won't find that in the corporate world. 
Selfless service is what an individual will do for the good of 
the team. Self-service is doing what is personal self-interest 
at the expense of the team.
    Recently a U.S. Navy SEAL received a Congressional Medal of 
Honor by throwing himself on a grenade to protect his team. 
That is selfless service. While deployed to Somalia in 1993, 
commonly referred to as Black Hawk Down, two of my unit members 
received the Medal of Honor for asking to be inserted into a 
crash site to protect a pilot, knowing what their fate would 
be.
    That is selfless service, and combat effectiveness depends 
on it. It doesn't happen by accident. It must be taught with 
concentrated training, no distractions. Selfless service is 
reinforced with discipline and encouraged by the example of 
combat leaders.
    The Ranger way of life trained me for what I do now as a 
CEO of the company I started three years ago, Adventure 
Training Concepts (ATC). The concept is to use the U.S. Army 
training model to teach the value of teamwork during corporate 
team building and leadership development training.
    Our clients are diverse, men and women, adventure seekers 
of all ages, and I suspect some are homosexuals. All of them 
enjoy and benefit professionally from the lessons and teamwork 
taught by our programs. There is a notable difference, however, 
between the ATC environment and military units such as 
infantry, Special Operations Force and submariners.
    On my facility people learn about teamwork and leadership, 
but they do not share close, intimate living conditions 
comparable to those in the military. The difference is 
critically important and disregarded at great risk.
    In the civilian business world, decisions frequently are 
based on bonuses and job security. In the military environment, 
team cohesion, morale and esprit de corps is a matter of life 
and death. Bonuses and job security comes second to the reality 
of writing a hard letter home to a loved one or holding the 
hand of a teammate who is fighting for his or her life.
    In my 21 years of service in the U.S. Army, I sat and 
performed in as many leadership positions that I could. As a 
leader my first obligation was to the Nation. It meant keeping 
our soldiers ready for any situation for which our country 
called upon them. It meant taking care of each soldier I had 
the honor of leading. It meant being fair and impartial to 
every soldier. It also meant keeping the soldiers under my 
charge safe, secure, trained, equipped and informed as I 
possibly could. And on their behalf I would respectfully like 
to say at this time of war, I find it surprising that we are 
here today to talk about this issue of repealing the 1993 law.
    Our soldiers are overtasked with deploying, fighting, 
redeploying, refitting and deploying again. These brave men and 
women have achieved what many million Americans thought 
impossible. With all the important issues that require 
attention, it is difficult to understand why a minority faction 
is demanding that their concerns be given priority over more 
important issues.
    As a U.S. Army Ranger, I performed long-range patrols in 
severe weather conditions, teams of 10, with only mission-
essential items on our back, no comfort items. The only way to 
keep from freezing at night was to get as close as possible for 
body heat, which means skin to skin. On several occasions, in 
the close quarters that a team lives, any attraction to the 
same sex teammates, real or perceived, would be known and would 
be a problem. The presence of openly gay men in these 
situations would elevate tensions and disrupt unit cohesion and 
morale. Repealing the 1993 law will not help us win this war on 
terrorism or any conflict that our military is called upon to 
fight and win in the future.
    Too much time is being spent on how we can hinder our great 
men and women in the military. Let us do all we can do to lift 
the morale, give them more resolve and motivate them to 
continue the absolutely great job they are doing. I hope that 
this Congress will not make their jobs more difficult and 
dangerous than they already are by repealing a solid law that 
continues to support the morale, discipline, and readiness of 
our troops.
    Thank you.
    Mrs. Davis of California. Thank you very much.
    [The prepared statement of Sergeant Jones can be found in 
the Appendix on page 168.]
    Mrs. Davis of California. We appreciate all of your 
testimony today, and I think before we start, we all want to 
recognize that we are the best military in the world because we 
have men and women who would want to serve their country today 
and serve very, very ably. All of them do.
    Perhaps I will start with you, Sergeant Major Jones, 
because you have brought up an important issue that my 
colleague brought up initially, too, Mr. McHugh, the one of 
unit cohesion and how important that is. I wonder as we look at 
the numbers today, we are talking about serving in a time of 
war, that the separation of gays and lesbians from the service 
seems to be going down. And some would suggest that it is 
because commanders want to hold onto their skilled men or women 
in their units. And perhaps there has been a suggestion that 
they are looking the other way or they are not as concerned 
about it. How would you respond to that, and do you think that 
that is what is at issue here?
    And I am also going to turn to Sergeant Alva about unit 
cohesion. Could you talk to us a little bit more about why you 
see that as a problem? Is that less a problem; is that why we 
are seeing the changes today?
    Major Jones. No, ma'am. A lot of the problem that you see 
within the unit cohesion question regarding turning their backs 
on problems out there, I believe that is a myth. I am talking 
from experience. I have 21 years in mostly leadership positions 
in some of the hardest places to lead that you can imagine. 
When you get the troops as busy as they are right now, in part 
of my testimony I talked about the deploying, redeploying, 
refitting and deploying again, and that is what they are called 
to do right now. It is not that they turned back on problems, 
it is that they have no time to deal with it.
    A problem person in a company for a commander takes a lot 
of time, because we are very thorough. And when you have two 
weeks to get your troops into the Iraqi theater or the 
Afghanistan theater, you are going to have to put that on hold. 
You are going to have to put that on the back burner and deal 
with it at a later time.
    Well, just to talk a little bit more about the cohesion 
problem----
    Mrs. Davis of California. May I ask, if you had a very 
capable person in a position, be it a medic or whoever that 
might be serving, and yet you knew you had a very important 
mission ahead of you, would you want that person separated from 
your unit if that person, in fact, was the very best, but you 
also knew that it had been recognized that this person was gay? 
Is there a choice that commanders make occasionally?
    Major Jones. My first duty and responsibility to this 
Nation, which is utmost over everything, is to obey the laws 
and the orders, and I take an oath to do that when I join the 
service. And every time I reenlist, I raise my right hand, and 
I mean every word of it when I say it. It is a very important 
time, and I remember every one of those times when I was in the 
Army that I did that.
    My officers above me and my country gave me orders that 
just because I have someone I want in my unit, if they are 
there illegally, then my duty as a sergeant major is to get 
them out of that unit, because that is my duty.
    Mrs. Davis of California. Could you speak to that, Sergeant 
Alva or Captain Darrah?
    Sergeant Alva. Unit cohesion is a very essential part of 
the military. That is one of the biggest priorities and goals 
of each unit, whether it be a squad, platoon or a company.
    Speaking from experience, as the major has stated, we all 
have our different individual experiences, and my experience in 
2001 while serving on a unit deployment program to Okinawa, 
Japan, in Camp Schwab, I was in charge of about 15 junior 
marines, and one of the examples of unit cohesion that can also 
be destroyed is the particular conduct of how a service member 
behaves when they don't want to adhere to orders regardless of 
who that person is in title or rank. Maybe it is the 
dereliction of duty that that one marine or soldier-airman has. 
And I particularly had one of those cases where this one 
particular marine had to go through two nonjudicial 
punishments, consecutive 45 days restriction, and still would 
break those. And every time he broke it or had another 
nonjudicial punishment, or even when we processed to his 
administrative court martial, it was destroying the unit 
cohesion of my other 14 marines, because they were having to do 
other things to make up for his dereliction of duties or not 
upholding his conduct, which the Uniform Code of Military 
Justice (UCMJ) states that each and every service member should 
do.
    That is what destroyed our unit cohesion, someone who 
didn't do their job, someone who wasn't abiding by the 
professionalism and doing the merit that they should when they 
joined the United States Armed Forces. No one else was 
concerned about what he was doing, you know, as far as on the 
weekends or who he was dating while in Japan or anything. It 
was about the job he was not fulfilling to complete the unit 
cohesion that existed within our unit.
    Mrs. Davis of California. Thank you.
    Captain Darrah.
    Captain Darrah. I think, frankly, it is much more 
disruptive to unit cohesion and morale if you have a hard-
charging performer who is doing a bang-up job for the unit, and 
the next thing, the commanding officers have to fire this 
person because they figured out that they are gay. I think that 
causes much more disruption.
    Mrs. Davis of California. Thank you. My time is up.
    Mr. McHugh.
    Mr. McHugh. Thank you very much, Madam Chair.
    And to all of you, as I tried to indicate in the beginning, 
I deeply appreciate, as we all do, your being here. It is a 
difficult issue, and I know sharing your most innermost 
thoughts and passions is not easy, particularly before cameras, 
unless you are a politician. Then it is a different 
perspective. But for you I know it is difficult.
    I appreciate particularly the service of the four of you 
who have given so much to this Nation and the uniform of your 
country. Regardless of what other labels are placed upon you, 
you are American heroes, and thank you for all that you did.
    General Coleman, let me ask you a question, because I got a 
little confused. What year did you join the service, sir?
    General Coleman. 1947.
    Mr. McHugh. So you were one year before the segregation of 
the units pursuant to the order of integration, the order of 
the President, true?
    General Coleman. Yes, sir.
    Mr. McHugh. You were immediately assigned to a segregated 
unit?
    General Coleman. Yes, sir. I took basic training in a 
segregated unit.
    Mr. McHugh. And then I believe I heard you say in the 
Korean conflict you were again assigned to a segregated unit.
    General Coleman. Yes, sir.
    Mr. McHugh. Help me understand why it was after so many 
years after the order of desegregation you were still in 
segregated units in the Korean conflict.
    General Coleman. In 1951, I completed Officer Candidate 
School at Fort Sill, Oklahoma, and was reassigned to a National 
Guard unit from Alabama, Mississippi, the southern part of the 
United States. I reported for duty in that organization. 
Incidentally, some of my classmates were also assigned to the 
same unit, and they were there.
    Mr. McHugh. I should make it clear. I am not disbelieving 
you. I am curious as to what the process was in 1948 onward to 
desegregate previously segregated units. Apparently this took 
some time, because the Korean war they were still segregating 
units; is that accurate?
    General Coleman. I was reassigned to a segregated unit once 
I reported for duty. That was 1951, and that was after 
President Truman had signed the Executive Order. I believe the 
process was taking place at that time, some units were 
integrating, some were not. All the services were not on board 
to comply with the Executive Order by the President. However, 
in Korea, the commanders in Korea were smart. They said, we 
want qualified people. I happened to be lucky enough to be one 
of those people, qualified people, who got assigned to a unit 
and to Korea in compliance with the Executive Order.
    Mr. McHugh. So what I believe your experience would teach, 
and this is really the crux of my question, regardless of your 
talking about desegregation or lifting a Don't Ask, Don't Tell, 
do you think there ought to be some program available to 
accommodate the transition, or do you think it just should 
happen?
    General Coleman. I----
    Mr. McHugh. Because in your case it didn't just happen. In 
fact, I think we would find African American soldiers today 
that would argue in 2008 it still hasn't happened. Would you 
agree with that?
    General Coleman. No. I think they are all integrated in 
2008.
    Mr. McHugh. Well, I mean, for practical purposes, not by 
numbers.
    General Coleman. Now, I would say that in response to a 
question about a program, no, I don't think a program is 
necessary. What I see is a leadership decision, a leadership 
attitude, a leadership problem. A leadership problem. If a unit 
is integrated, no matter who gets assigned to my unit, they 
have been assigned to my unit, it is my responsibility to train 
and equip them and prepare them for combat.
    Mr. McHugh. I was thinking more along those others who were 
assigned to units, rather than the command. I assume if command 
is given a command, they follow it. I don't want to be naive 
about it. I am just trying to understand, if this order were to 
be lifted, what the process should and might be to accommodate 
it. But I appreciate your response.
    Let me ask Captain Darrah. I believe I heard you say you 
were not yet to the realization you were gay when you joined.
    Captain Darrah. That is true.
    Mr. McHugh. If you were, would you have still joined? I 
know that is a hypothetical question, but to the best of your 
ability, what do you feel?
    Captain Darrah. If I were--if this--if I were 19 or 21 now 
today, I would not join.
    Mr. McHugh. You would not join.
    Captain Darrah. I would not.
    Mr. McHugh. Sergeant Alva, you were of the realization when 
you joined that you were gay?
    Sergeant Alva. Yes. Yes, sir.
    Mr. McHugh. And you did join.
    Sergeant Alva. Yes, sir.
    Mr. McHugh. Help me to understand your motivation and what 
your expectations were.
    Sergeant Alva. Well, in 1989, after graduating from high 
school, a five-foot-one individual weighing 90 pounds, it 
turned in more to a challenge when people told me I couldn't 
join because they didn't see me tall enough or even able enough 
to join, and I wanted to serve my country. As fellow high 
school seniors were coming back from boot camp, and I had seen 
the metamorphosis they have gone through from going away as 
boys and coming back as grown men and disciplined men, I wanted 
that same challenge. I wanted to serve my country as a 
patriotic American.
    Mr. McHugh. So you were aware of Don't Ask, Don't Tell at 
the time?
    Sergeant Alva. Not at this time, sir. Don't Ask, Don't Tell 
wasn't until 1993. It was in 1991 when I joined.
    Mr. McHugh. You joined in 1991. Would you have joined in 
1991 had it been the policy in 1991?
    Sergeant Alva. Yes. Yes, sir.
    Mrs. Davis of California. Thank you, Mr. McHugh.
    Dr. Snyder.
    Mr. McHugh. Thank you.
    Dr. Snyder. Thank you, Madam Chair. I appreciate you.
    Sergeant Major Jones, I was reading your biography, and it 
says, quote, ``He is married to Michelle Jones, who spent 13 
years in the U.S. Army. She was a captain who commanded two 
companies in the Transportation Corps to include one year in 
combat.''
    After this hearing you may want to have a discussion with 
Ms. Donnelly, because she has been leading the charge for the 
last several years to put more restrictions on women in the 
military, and we could use your help. And if this issue flares 
up again, which I don't think it will----
    Ms. Donnelly. Captain Jones is a friend of mine. I support 
her.
    Dr. Snyder. Excuse me, Ms. Donnelly, it is my time here. 
Thank you.
    I wanted to ask on this issue of unit cohesion, what 
concerns me when we define or talk about that, this is not a 
novel concept. It has been written about a lot over the years, 
but it is a unit cohesion, as it is defined by the proponents 
of the status quo, by the lowest common denominator. There are 
people in the military who think unit cohesion would be 
enhanced if our military reflected the opportunity and freedom 
that we believe is America.
    I am a veteran myself. I certainly have a lot of friends in 
the military currently, a lot of veterans. And so this idea 
that unit cohesion is somehow if we rock the boat with those 
who have the greatest fears, that unit cohesion is enhanced if 
we don't scare them, what about the people that want to see 
their military reflect the great strengths of America? I don't 
get this definition of unit cohesion. I think that is why this 
policy will fail.
    Incidentally, Ms. Donnelly, you can comment if you like, I 
think the bringing up of HIV is so inappropriate. By this 
analysis, you know what we ought to do, we ought to recruit 
only lesbians for the military, because they have the lowest 
incidence of HIV in the country. I mean, I don't get it. I 
think--I have heard a lot of dumb things in my life, but that 
is one of them.
    Ms. Donnelly. Would you like me to comment?
    Dr. Snyder. I want to ask, if I might, Captain Darrah, I am 
going to pick on you a little bit if I might. One very 
specific--and this is really facetious. Ms. Donnelly in her 
written statement on page six refers to ``inappropriate 
passive/aggressive actions common in the homosexual 
community.'' I am almost tempted to ask you to demonstrate that 
for me, but I don't think I will. I have never seen such bias, 
such discriminatory kind of--it is just bonkers.
    I want you to spend the rest of my time, Captain Darrah, 
and talk about this issue of fear. I think that we tend to go 
above the issue when we talk about unit cohesion and those 
kinds of things and all-important readiness.
    I agree with Sergeant Major Jones in terms of any big 
changes, we need to be careful about what--how we--
implementation is key. But I don't think enough people 
appreciate the day-to-day life of a gay or lesbian person in 
the military who wants to serve. Would you talk more about 
that? What does that mean day to day with your coworkers, 
coming back from weekends, going to parties on the base, all 
those kinds of things?
    Captain Darrah. Well, I wanted to qualify my comment also 
to Representative McHugh.
    I wouldn't join only because I spent 29-1/2 years, most of 
it, living under Don't Ask, Don't Tell; and I know how 
incredibly stressful it is. I still love our country, and I am 
so proud I had a chance to serve it.
    It is the little things. It is day to day going to work and 
knowing, no matter how good your performance is, if somehow 
somebody outs you, you are fired. That is just--I mean, that is 
the day-to-day stress.
    For example, if I----
    Dr. Snyder. That you could slip up.
    Captain Darrah. Absolutely.
    Dr. Snyder. And you could say----
    Captain Darrah. Yes, sir.
    Dr. Snyder [continuing]. I don't know your partner's name--
Leslie and I had a great time at the beach.
    Captain Darrah. Right. My partner actually is Lynn Kennedy, 
sitting right behind me, a Library of Congress former employee, 
but yes. She wouldn't even dare to call me at work. If there 
were any kind of an emergency, she would get a male co-worker 
to call me.
    And you are right. If I slipped up and said, my partner and 
I went to the movies, I would be fired. And I know so many 
people in the military that are still living under this, and I 
admire them, and that is why I am here.
    Dr. Snyder. Well, and my experience is that people who are 
out of the military, when they think of that time, as you have 
today, it continues to be something that they well up with 
tears to talk about. Here they are, we talk about special 
rights, the right to serve your country, and the tension and 
stresses.
    My time is up. I appreciate your all service. And thank 
you, Madam Chair.
    Mrs. Davis of California. Mr. Jones.
    Mr. Jones of North Carolina. Madam Chairman, thank you very 
much.
    And I join my colleagues who, no matter how you feel about 
this issue, thank you for being here today.
    And I want to ask--and I am going to go to you, Ms. 
Donnelly, because I think you wanted to respond to my 
colleague, but I do have a question first. What other countries 
have the military opened the doors to the homosexuals who would 
like to join the military and how did that impact in those 
countries?
    Ms. Donnelly. There are very few. Britain accepted a 
European court order. They are now well into progressing to 
accepting not only homosexuals and bisexuals but also 
transgenderism is on the agenda now for the British military.
    They do have recruiting and retention problems. They have 
problems and issues with what is called homosexual bullying. 
This is from the Stonewall Group that objects to anybody who 
objects to the agenda of the Stonewall Group.
    When we hear about training, the question was asked earlier 
about a transitional program to teach our military to accept 
homosexuals in the military. Let us talk about that. And, Dr. 
Snyder, it is okay to ask me a question about my own testimony. 
I am more than happy to answer your question.
    What do I mean by passive-aggressive behavior? It means 
something that is sexualized short of assault. It means the 
kind of thing like a woman who is stared at, her breasts are 
stared at. She is made to feel uncomfortable. She feels she has 
no recourse. She feels she cannot say anything, can't complain 
about it, because it would hurt her career. That is the kind of 
thing I am talking about.
    Only a year ago, in the Minneapolis Airport, the Nation was 
appalled to find that there were 39 men over a period of 3 
months, and one of them a U.S. senator, who were found to be 
engaging in what I would call passive-aggressive behavior, 
something that sexualizes the atmosphere and makes it difficult 
for everybody else.
    Brian Jones talked about the kind of impact on introducing 
erotic factors into that kind of a close combat unit. What that 
would do, it would be absolutely devastating to morale, because 
people would have no recourse. They can't leave.
    In a Minneapolis Airport, you come and go. If you go to a 
facility that involves families, private facilities at a 
recreation center, there is a sign there that says no little 
boys are allowed, no little girls are allowed in the other one. 
Why is that? Because we respect the power of sexuality and the 
desire for modesty in sexual matters.
    That is what this issue is all about. It is not about race. 
It is not about superficial things. It is about something very 
profound: the power and importance of sexuality.
    We have to respect the feelings that people have for the 
sake of unit cohesion, for the sake of trust. We have to not go 
down the road of saying, well, we are going to try to teach our 
military to have different attitudes toward sexuality. How does 
that benefit our military? How does that make it stronger? And 
if people disagree they are going to be forced out of the 
military because we have a new policy called zero tolerance of 
any dissent. That means denial of promotions.
    Major Jones. Can I add something to that? Because it is 
something that bothers me that I heard. We are trying to find 
out why we should do this, and one of the things was, well, all 
the other countries are doing it. Why don't we?
    Well, let me tell you why. I can answer that question.
    I went on Operation Deep Strike in Poland in 1999. It was 
the first deep strike operation into Poland. On a logistical 
post, transfer post going into Poland, I pulled in there as a 
sergeant major, and I found a situation that just appalled me. 
The captain, United States captain, had put all the females 
into a Polish infantry barracks. And in that barracks they were 
harassed. The females were absolutely traumatized.
    I had to stop where I was at, and I couldn't go forward 
where I really need to be. I had to take charge there and fix 
that situation. It was just absolutely out of control.
    The reason I say that is to help us to realize that nearly 
every country in the world wants an army like ours. The part 
that is missing is the values training. It is those character 
traits. And every single soldier that I have talked to, even in 
Iraq when I was deployed there recently in 2004, talked to me 
about the need for the discipline type training, the change in 
their life to get those things that our leaders teach that 
hardly any other country does to prepare our soldiers. And they 
are proud of that.
    And if you want retention to go down, take that training 
away and make it a wide-open army and anything goes and see 
what happens. What is going to happen is retention rates are 
going to absolutely go down.
    And I am not talking off of a poll that can be skewed any 
way you want it to read. I am talking to as a sergeant major 
that has 21 years of service experience in leadership 
positions, and I stay in tune with the soldiers that I lead.
    Mrs. Davis of California. Thank you.
    Thank you, Mr. Jones. Your time is up.
    Mr. Murphy.
    Mr. Murphy. Thank you, Chairwoman.
    First, I want to say thank you to the panel for being here 
and your testimony today.
    I want to introduce myself. I am Patrick Murphy. I am a 
freshman. I was in the Army, and I was in the 82nd Airborne 
Division over in Iraq, five years ago. Airborne, that is right, 
Sergeant Major.
    Ms. Donnelly, you testified that gays and lesbians cannot 
serve openly in the military because, and I quote, it would be 
detrimental to unit cohesion, end quote. In essence, you are 
basically asserting that straight men and women in our military 
aren't professional enough to serve openly with gay troops 
while successfully completing their military mission. And, as a 
former Army officer, I can tell you I think that is an insult 
to me and to many of the soldiers.
    To answer your question, Mr. Jones, it was 24 countries 
that military personnel served openly without any detrimental 
impact on unit cohesion. Ms. Donnelly, can you please justify 
your position that American service men and women are less 
professional and less mission capable than service members of 
other foreign militaries?
    Ms. Donnelly. I respect all our men and women in the 
military.
    By the way, Dr. Snyder, Captain Michelle Jones--is a friend 
of mine.
    Mr. Murphy. No, it is just actually Patrick Murphy.
    Ms. Donnelly. But I had to answer the other question, 
because it wasn't put to me directly.
    I respect all the people in the military, and I think your 
question is not quite the essence of what we are talking about 
here. If we say that forced cohabitation is the new rule and we 
are saying that if you don't like the way you feel then just 
relax and enjoy it or tolerate it, is that fair?
    Mr. Murphy. Ms. Donnelly, that is not actually the 
question. The question is, are you saying that you do not trust 
our military professionals to serve openly with other people 
that might not be heterosexual when 24 other countries do it? 
It has nothing about forced cohabitation. In fact, we have----
    Ms. Donnelly. Let me finish the question.
    Mr. Murphy. You can, but I don't want you to 
mischaracterize what my question was, Ms. Donnelly, with all 
due respect.
    Ms. Donnelly. You said professional, okay. Professional 
does not mean automatons. It does not mean that people are not 
human. They are human. People have sexual feelings, and they 
are not perfect. We know that in the Armed Forces with all the 
wonderful men and women we have, we do have issues regarding 
sexuality. Men and women have issues because they are not 
perfect.
    Mr. Murphy. And that is why there is the UCMJ and Army 
regulations and Marine Corps regulations. Because if there is--
--
    Ms. Donnelly. Let me ask you this.
    Mr. Murphy. Hold on now. It is my time, too.
    Now, if there is misconduct, then there are regulations to 
deal with that misconduct.
    Ms. Donnelly. Yes.
    Mr. Murphy. But we are talking about orientation, not 
misconduct here. And that is the premise of my question to you, 
Ms. Donnelly, is that you are saying that our military, the 
greatest military in the world, one I was honored to serve with 
when I first put the uniform on back in 1993, is not as 
professional as 24 other countries because they can understand 
what is right and what is wrong.
    Ms. Donnelly. What would you say to Cynthia Yost, the woman 
who on a training exercise was assaulted by a group of 
lesbians?
    Mr. Murphy. I would say to her the same thing I would say 
to every single man or woman that serves in the military. You 
go to your superior officer, and they will get prosecuted under 
the Uniform Code of Military Justice. That is exactly what I 
will tell them Ms. Yost.
    Sergeant Alva, you lost your leg in Iraq, and thank you for 
your service to our great country.
    Sergeant Alva. As well as you, sir. Thank you.
    Mr. Murphy. Can you please comment on my question about 
unit cohesion? Do you not think that a Marine can answer the 
call to duty if they are asked to by our Nation?
    Sergeant Alva. Yes, sir. In fact, there was two fellow 
Marines on my convey that day on March 21st. Losing my leg was 
an unimaginable tragedy that I never would have thought of. But 
on that convey that day--and people were aware of my 
orientation--no one stopped to prevent my life from going on. 
They did their job, which each man or woman is when we are 
going into Afghanistan or Iraq, and that is to take care of 
each other, accomplish the mission. And I was brought home 
because those Marines did their job. The unit cohesion was not 
broken. People did what they were supposed to do. They did 
their jobs.
    Mr. Murphy. General Coleman, you are a two-star general. 
You also got the Purple Heart in your service in Korea. When 
you joined our military, it was still segregated. It was 
desegregated, as you mentioned in your testimony. Sir, you 
testified that you felt like a second-class citizen; and could 
you expound on that? Do you think that in your role----
    And, again, when you take that oath to support and defend 
the Constitution it is not just for your time on active duty, 
it is for a lifetime of service to our country. Can you comment 
on unit cohesion and your feelings on what we do with our 
military?
    General Coleman. Yes sir.
    Well, unit cohesion is a leadership issue, and that starts 
from the very lowest unit at the lowest level and works all the 
way to the top. And there is a commitment for everyone. And you 
build teams through cohesion. And if you take one member away 
from that team, then you are breaking the cohesion, regardless 
of what the sex is or what color they might be. You are 
building a team, and that team lives and works together.
    Mrs. Davis of California. Thank you, Mr. Murphy. I am 
sorry. Mr. Murphy's time is up.
    I am going to go in the numbers in which the people came in 
early. Ms. Shea-Porter is next.
    Ms. Shea-Porter. Thank you very much.
    I had the great honor of being a military spouse. In those 
days we called them military wives, because there weren't that 
many men around who were spouses. So I thank all of you for 
your service. And I know that when somebody is in the family, 
everybody is in. And that means your partner or your spouse or 
your children or anybody. So I thank all who have served and 
stood by those who have served.
    Ms. Donnelly, I have a question, and you may not want to 
answer, but when did you decide to become a heterosexual?
    Ms. Donnelly. I don't understand the point of your question 
except to say this: Sexuality is important.
    Ms. Shea-Porter. Let me ask you, was that a choice?
    Ms. Donnelly. Homosexuals are human.
    Ms. Shea-Porter. I'm not interested in a long talk. I just 
want to know, do you think that is a choice or do you think you 
just are what you are?
    Ms. Donnelly. I am not an expert on why----
    Ms. Shea-Porter. I have a pretty good sense that you would 
answer it differently, and I respect that. But the point that I 
am making is that this really does not interfere.
    And from my experience--and, by the way, I have a cousin 
who also is in the submarines, and I spoke to him about this. 
It didn't bother him one bit. Because it really has to do with 
how people perform at their job, not who they are or what they 
are born to be.
    So I think 10, 15 years from now we are going to look at 
this hearing and we are all going to be embarrassed that we 
actually sat here and talked about this. And I am embarrassed 
right now. Because I think what we are looking for are men and 
women who are willing to serve this country, love this country, 
step forward to serve this country, especially in times of 
great duress.
    So I am going to ask you another question, Ms. Donnelly.
    Ms. Donnelly. May I comment on what you just said?
    Ms. Shea-Porter. Well, actually, not yet, but I will give 
you a moment. What I would like to ask you is, are you aware 
that the Army is now allowing 10 percent of recruits to come in 
with moral waivers?
    Ms. Donnelly. Yes, and I think it is wrong. I think the 
Department of Defense could do much better than what they are 
doing.
    Ms. Shea-Porter. Okay. So you are going to blame it on the 
Department of Defense.
    Ms. Donnelly. Joining the military starting with the 
President on down. And it is a problem. But you don't solve it 
by repealing the law and saying that homosexuals are going to 
be in the military.
    Ms. Shea-Porter. Ms. Donnelly, I am not really sure why 
these good people are your target, frankly. Frankly, I do not 
understand it.
    So I guess I will just turn to Captain Darrah and say that 
I listened to what you were talking about when you were saying 
how you constantly had to hide and how you lived in fear and 
how you would not recommend it for people to go in. What kind 
of talent do you think we are losing right now because of this 
policy that we have?
    Captain Darrah. Oh, tremendous talent. Every day I speak to 
people that think about joining the military.
    And my other fear is there is tremendous talent in the 
military, and people that are living under Don't Ask, Don't 
Tell and enduring the stress that I did, and if these people 
decide they don't want to serve anymore, that is another 
tremendous loss. So I think we lose a tremendous number of 
people. And there are wonderful people out there that happen to 
be gay that would love an opportunity to serve our country.
    Ms. Shea-Porter. Right. And it is difficult, especially 
right now when we are having trouble recruiting, to walk away 
from people with a genuine love for their country.
    Obviously, it is not a policy. And to turn away from people 
who have done nothing wrong and to choose others who have 
committed some offenses and have been arrested for offenses and 
to say you are somehow better than others simply because of who 
people are--I am embarrassed. I mean, there is not a whole lot 
more to say except that I apologize that we use the wrong 
yardstick to measure a person's worth and devotion to the 
country. And it is my fervent hope that in 15 or 20 years we 
will change. Because I will tell you for myself that I may be 
straight, but I am not narrow. And I think that this policy 
here is very, very narrow.
    Thank you, and I yield back.
    I am sorry, may I take that one question, Chairwoman?
    Captain Darrah. First, thank you for your remarks; and I 
certainly hope it is not 15 more years. But I wanted to comment 
again.
    I was somewhat offended by the comments about military 
leadership. I mean, the military and I, as a leader and part of 
the military, pride ourselves on our ability to be good leaders 
and to take diverse groups of people, different colors, 
different genders, different religions, and figure out how to 
work together to accomplish the mission. And that was one of 
the most wonderful things in my experience in the military.
    I had never met a black person when I joined the military. 
By the time I left, I didn't care anything about a person--
their religion, their ethnic, their skin color. All I cared 
about was their performance and their ability to get the job 
done.
    Ms. Shea-Porter. Thank you. And thank you, General Coleman, 
for being here as well to speak up for people who have not had 
the same opportunities. We are getting there. Thank you very 
much.
    General Coleman. Do you still have time?
    Mrs. Davis of California. We have a yellow. She has about 
two seconds left. Did you want to comment quickly?
    General Coleman. Yes, please. I was sitting here listening 
to what is going on, which sent me back to 1948 when I first 
came into the Army. I graduated from OCS, and I said I am going 
into this unit with the same standards that people have been 
assigned to who are able to stay there because they were 
black--white. They weren't black. They were white, and I was 
black, and I couldn't stay there. And then I look at some of my 
gay peers, and I said they are being treated the same way. And 
that is definitely, definitely not right, and we deserve equal 
ground.
    Mrs. Davis of California. Thank you.
    Mr. Kline.
    Mr. Kline. Thank you, Madam Chair.
    Thanks to all the panelists for being here today. Thanks 
for your service, your military service, much of it at great 
sacrifice and very distinguished service. This is--as you can 
tell by, sometimes, the heat of the comments and the questions, 
this is an emotional issue, and so I appreciate your 
participation here today.
    I have got to say, just as a matter of sort of personal 
state pride, that we get a little bit defensive when people 
talk about the Minneapolis Airport, but I can understand where 
that might have come from.
    My colleague, Mr. Murphy, said there were 24 countries who 
I understand, I think, Mr. Murphy, who allow gays, homosexuals 
to serve openly without any detriment to unit cohesion. I am 
not sure on what basis you have made that determination that 
there is no detriment. But I know that Sergeant Major Jones had 
started to address that issue earlier, and I wonder if you have 
any more that you would like to say about that.
    Major Jones. Repeat the question, please.
    Mr. Kline. Yes. The question is, there are countries who 
have opened up their policies and allowed homosexuals to serve 
openly. And the claim is that has had no detrimental effect, 
and you started to say something about it.
    Major Jones. Right. I wasn't able to finish my answer.
    What I would like to say about that, the point I was trying 
to make is that every country--I have worked alongside a lot of 
them--Britain, France, England, Poland, the Italians--and what 
I have seen, or a common thread between all of them, is they 
want to be like us. And I can't for the world of me understand 
why we would compare ourselves to them and say, well, you need 
to be more like them.
    We lead in every facet in the world here. They wait for us 
to make the first move. They know our Army is capable. And you 
talk about cohesion. We have the best cohesive Armed Forces 
across the board than anybody in this world.
    I could give you more specifics on some of those things I 
have seen. The Italians in Iraq in 2004--I was on the ground 
there. And what they would do is hang out at the post exchange 
(PX) and wait for Army females to come shopping, and they would 
invite them to a party where they are allowed to drink, and 
drinking is encouraged. And the incidence of rapes just went 
through the roof, misconduct, and some of the things is just 
appalling. So they had to place the Italian compound off 
limits.
    It didn't stop anything, because they always seemed to be 
one step ahead. They had poor discipline. They don't teach the 
same value system that we have.
    And what I have seen across the board, like I said, in 
every aspect, the special operations, airborne units that I 
have worked beside have always wanted to find out how they 
could be more like us. A lot of that thing is it is the way we 
train and mold teams.
    It is not a matter of, what I have heard earlier, 
discrimination. It is not that at all. We welcome anybody and 
everybody, even in the most elite special operation units, like 
Delta Force that I have been in. We welcome those Americans 
across the board. It is not a matter of that. It is a matter of 
having a team.
    And some of the specific things I talked about, the trust 
factors there, that nobody lied about how they got in the 
military. Do we know that we can depend on these people? When 
we get on the ground in that 10 degrees Fahrenheit in the 
mountains somewhere and we can't build a fire and we have to 
huddle together to stay warm to keep from freezing in the 
night, there can't be any arousal. There can't be that awkward 
feeling. It is going to hurt the cohesion of the team. And 
those are the kinds of things that we have got to think about.
    The other thing is, how are you going to implement this? 
And I have talked about how busy we are. We got enough on our 
plate. We are stretched as thin as we can. Okay, now let us 
stop and retrain the whole Armed Forces and see how we are 
going to make the time to implement that safely and securely so 
that no one gets offended or hurt or court-martialed or 
whatever the case may be. How in the world are we going to do 
it?
    Mr. Kline. Thank you very much, Sergeant Major.
    Madam Chair, I see the light is getting ready to turn red, 
so I will yield back.
    Mrs. Davis of California. Thank you.
    Ms. Tsongas.
    Ms. Tsongas. Thank you, Chairwoman Davis, for holding this 
long-overdue hearing; and as well thank you to our witnesses 
for participating today. I currently represent a district that 
was formally held by Congressman Marty Meehan who initiated a 
discussion around this issue; and I thank you all, also to 
Congresswoman Tauscher, for continuing the discussion. As you 
can see, it is so important.
    I would like to read something. We had it read into the 
record. But the DOD statement regarding Don't Ask, Don't Tell, 
in part.
    Quote, there is no ban on gay and lesbian service members. 
A service member's sexual orientation is viewed as a personal 
matter and is not a bar to continued service unless manifested 
by homosexual conduct. The law establishes a basis for 
separation from the Armed Forces as conduct, not sexual 
orientation.
    I would like to ask Captain Darrah and Sergeant Alva, is 
that the military you served in.
    Captain Darrah. Yes ma'am. That is why I lived basically 
two lives. My conduct was exemplary, my performance was 
sufficient to promote me to the rank of captain and make me the 
deputy commander of the Naval Intelligence Command, but I lived 
two separate lives.
    Sergeant Alva. Thank you, Congresswoman.
    I agree with Captain Darrah. The same is that, you know, in 
13 years of service, you know, my orientation was not a factor. 
It was about me just doing my job. You know, especially going 
into Iraq, it was about me as a staff noncommissioned officer 
and is along the same lines. And I almost feel like we are 
along the same paths other than, you know, with Sergeant Major 
Jones.
    I was in Somalia in 1992, 1993 and served along forces, 
with Canadian and Italian troops. And even 15 years later I 
have run into meeting some Canadian troops just out vacationing 
in Puerto Vallarta or riding on a plane traveling the country. 
And we always seem to discuss that--you know, because I wear 
shorts, they see my prosthesis, and they ask me did you get 
injured in the war? And I say, yes, sir. And they are like, 
well, what do you do now? And I tell them I was going to 
college; and I actually tell them, you know, that I actually 
speak on repealing Don't Ask, Don't Tell.
    And every single person that I come across from a different 
country doesn't understand why our Nation is so further behind 
others when we seem to be the forefront of trying to be the 
example. And it is amazing because it is all about us just 
being recognized for doing a good job.
    Ms. Tsongas. And yet this is also a policy in which conduct 
is very broadly defined. So merely declaring your sexual 
orientation can lead to a presumption of conduct that is a 
basis for asking you to leave the service. So how does that 
compromise----
    Sergeant Jones, you were talking about the issue of values, 
a values-based training, in which honesty is a very important 
factor; and yet honesty is a very much compromised value for 
someone who happens to be gay and can only stay in the military 
by remaining secretive or lying.
    Ms. Donnelly. May I comment on that, Brian? The statement 
from the Department of Defense is not accurate. The law states, 
and I quote, the prohibition against homosexual conduct is a 
long-standing element of military law that continues to be 
necessary in the unique circumstances of military service.
    That statement makes no sense. And notice the dissembling 
phrase, ``sexual orientation''. That phrase is nowhere in the 
law. The law says that if you say you are homosexual that means 
you will engage in the conduct that defines what homosexuality 
is. It is very straightforward.
    But the confusion, statements like that put out by the 
Department of Defense, that is the source of problem that we 
are hearing about today. Young people should know they can 
serve their country in many ways. But some people, many people, 
are not eligible to serve in the military. It is not a right. 
Sometimes it is an obligation. But there is no right to serve 
in the military.
    And, by the way, who says that any group is any more 
perfect than others? Who says that homosexuals are any more 
perfect than heterosexuals? We know people are human. They have 
failings. We need policies that encourage discipline rather 
than indiscipline. If we know that it doesn't make sense to 
have men and women sharing the same quarters, no privacy 24/7, 
if we know that is not sound policy, why would we pretend that 
it is okay to pretend that homosexuality doesn't matter?
    This is all about sexuality, respect for common sense, the 
desire for modesty in sexual matters. The sound policy of the 
law has been undermined by Don't Ask, Don't Tell.
    The question are you a homosexual that used to be in the 
induction forms, that question ought to be reinstated. 
Otherwise, it is like, as I said before, when bartenders have 
said you have to enforce that law, you can't serve a person 
under age, but you can't ask any proof, you can't have a sign 
that says we check ID, and if that young person goes out and 
has a fatal collision, well, then the bartender is responsible. 
That is bad policy. On that one point we all agree. But the 
law----
    Mrs. Davis of California. Ms. Tsongas' time is up. Thank 
you.
    Mrs. Boyda.
    Mrs. Boyda. Thank you very much, Madam Chairwoman, for 
calling this hearing.
    Sergeant Major Jones, I just wanted to clarify something--
and, again, I hope that you understand how much I deeply 
appreciate your service, everyone's service here today. Keeping 
our country safe is I think our number one--well, it is clearly 
the number one responsibility of our National and Federal 
Government.
    And, Brian, when you were giving your opening remarks, I 
just wanted to ask you to clarify something. Because I think 
someone might have misinterpreted what you said, and I 
couldn't--I can't imagine----
    You talked quite eloquently about selfless service, and I 
know that you were not implying that Staff Sergeant Eric Alva 
didn't perform selfless service in his line of duty, did you?
    Major Jones. No, ma'am, not at all. In fact, I really 
appreciate his service to our country. And I know he is very 
sincere, and I am proud of his service, as I would be anyone.
    If you would like me to talk a little bit more what I meant 
by selfless service, I could clarify.
    Mrs. Boyda. I would just caution you in this conversation, 
because I would have been shocked if you had said, no, I don't 
think it was selfless service. But I would just caution you as 
we move forward that we talk about the issue as openly and as 
respectfully as we can. Because many people who would have 
heard you and known what we were talking about, it wouldn't 
have been hard to say that you were implying that you have 
selfless service, a heterosexual. But that would have been easy 
to imply.
    Major Jones. Would you let me explain what I mean by that?
    Mrs. Boyda. Actually, because I only have five minutes--if 
we have more time, then I would be happy to do that.
    And, again, when you said that, I believe every word. I 
feel quite certain that Sergeant Alva believed every word as 
well, too. So I would just caution while we have this 
discussion----
    And, Mrs. Donnelly, I just was curious, when we went back 
into the 1930's and 1940's and we were trying to deal with the 
very, very difficult issue of segregating and desegregation of 
our military when it came to issues of race, if you could take 
yourself back then, where would you have stood back in 1940 on 
that issue of race? Where would you--it wouldn't be hard. Put 
yourself back there. And now you are being asked to testify on 
behalf of this. Where would you have stood on that issue?
    Ms. Donnelly. Well, I wasn't born then, but I do know I 
remember in high school when friends of mine went and were part 
of the civil rights marches I was very proud of that movement, 
what Martin Luther King said and did. The history of the 
military with regard to civil rights is among our proudest 
chapters.
    On the Presidential commission on which I serve that looked 
at the issue of women in combat, we established that the 
executive order of Harry Truman was done for two reasons: to 
advance equal opportunity, yes, but its number one reason was 
to improve military necessity. We needed those soldiers, and we 
are proud of them. But when you make it a sexual issue, it 
doesn't fit the same tradition.
    Mrs. Boyda. Reclaiming my time here. What would you have--
because, quite honestly, many of the same arguments were put 
forward then on unit cohesion. What it would do to undermine 
this great military? That we had the--you know, I think we all 
recognize that the arguments sound very, very, very similar in 
many, many ways, and it comes back mainly to unit cohesion. It 
sounds like you feel very passionately that that was a good 
decision.
    Ms. Donnelly. Yes.
    Mrs. Boyda. If you could again put yourself back there, 
what would you have said to those people to help convince them 
that, as well-intentioned as they were, they were just wrong. 
What would you have said to them?
    Ms. Donnelly. Prejudice is wrong. But feelings about 
sexuality are different.
    Mrs. Boyda. They weren't talking about prejudice. They were 
talking about unit cohesion. And they weren't making a case 
that black people were good or bad. They were just talking 
about what it would do to unit cohesion.
    Ms. Donnelly. Yes.
    Mrs. Boyda. How would you have said--do you think it would 
have--do you think their arguments about unit cohesion were 
valid or not valid?
    Ms. Donnelly. Prejudice is wrong. We are not talking about 
racial prejudice. We are talking about feelings of sexuality.
    Mrs. Boyda. Mrs. Donnelly, I am not asking you about that. 
I'm saying----
    Ms. Donnelly. Saying that sexuality does not matter----
    Mrs. Boyda. Excuse me. I reclaim my time. Just a moment.
    Again, the whole argument on cohesion--I would like you to 
answer the question that I am asking. It sounds like you 
believe you would have been on the other side of that issue 
this time. And they were making an argument about unit 
cohesion, not prejudice. They certainly didn't make this 
argument on prejudice. What would you have said to somebody who 
was saying this is going to be a bad thing for unit cohesion? 
What would you have said to them?
    Ms. Donnelly. I would say prejudice is bad for unit 
cohesion. You do things for the best interest of the military.
    What we are looking at today is the issue of sexuality. It 
is personal. It is private. It is something that if we set out 
as a military to say there will be zero tolerance on anybody 
who is not willing to go along with this----
    Mrs. Boyda. What I hear you saying then is it did not 
affect unit cohesion, although many people said that.
    Ms. Donnelly. I already answered your question at least 
three times. This is a totally different issue.
    Mrs. Davis of California. I am going to move on to Mrs. 
Tauscher. Mrs. Tauscher.
    Ms. Tauscher. Thank you, Madam Chairman. Thank you very 
much for holding this hearing, and thank all of you who have 
served and are here today to help us talk about what is a very, 
very important issue.
    I am the author of the Don't Ask, Don't Tell repeal. And I 
am very proud to be here, not only because this is the first 
time in 15 years that we have had the ability to talk about 
this issue, but because this week is also the 60th anniversary 
of President Truman signing the executive order ordering the 
racial integration of the Armed Services.
    And contrary to what Ms. Donnelly wants you to believe, 
this is a civil rights issue. I believe that repealing the 
Don't Ask, Don't Tell policy is probably the last civil rights 
issue we have.
    We have the finest military in the world. I think we all 
know that and believe it. And what the military has done for 
the American people over many generations is form a more 
perfect union. Because, over time, it has been the perfect 
union. Because it has been a place where we have gotten rid of 
racial discrimination far before we did it in our own country.
    And now we have a chance to take away discrimination by 
sexual orientation; and I think that it is very, very important 
that we look forward to doing that. Because not only do we have 
issues of readiness that are very clear in our military now but 
because I think the American people always want us to strive to 
do better and because we know in our hearts that we have had 
gay and lesbians serving in the military probably from the 
first unit that was ever put together. And for now to have a 
policy where those fine Americans can only serve if they lie 
about who they are is a discredit to the American people. It is 
a discredit to their service and their opportunity. It is a 
discredit to people who have died in service. It is a discredit 
to their families. And I am very happy and very proud to stand 
with my colleagues who are supporting the future repeal of 
Don't Ask, Don't Tell.
    General Coleman, oddly Ms. Donnelly refers in her testimony 
to inappropriate passive-aggressive actions common in the 
homosexual community. To me, that relies on a rather dubious 
assumption that the military does not have regulations and 
procedures needed to address inappropriate actions. I would 
like to ask you, is the military currently capable of 
addressing inappropriate actions by service members? And if 
Don't Ask, Don't Tell were repealed and replaced with a 
nondiscriminatory policy based on such sexual orientation, 
would that prevent commanders such as yourself from addressing 
inappropriate actions by gay and straight service members?
    General Coleman. The military does have a policy that 
applies to all members, whether they be straight or gay or 
otherwise; and it does not prevent commanders from exercising 
that right. It is an exercise in leadership. As a matter of 
fact--leadership will do that.
    I would like to add a couple of other comments about the 
company I led, training the Army during a long training 
program. The Army is in a constant state of change, a constant 
state of training. That is one of the things that we do in the 
Army, is to change and to train. If we didn't change, we 
wouldn't be the Army that we are. And it was very offensive to 
me to hear the comments regarding the condition of our Army, 
the people in the Army, how they react. Having been there, that 
is unfair to the people that are there serving and serving 
well.
    And this is not about sexuality. This is about military 
readiness. It is about giving young people the opportunity that 
want to serve and the opportunity to serve and giving them 
equality. And I hope when we look at that it is not at all 
about sexuality.
    Ms. Tauscher. Thank you, General.
    I have heard a lot in this testimony today that has 
surprised me and shocked me and disappointed me, including lots 
of loaded words like ``San Francisco-based attitudes''.
    And, Sergeant Major, your inference that this is a minority 
faction that is pushing this, there is a poll just last week--
and I know that you discredit polls unless they work for your 
argument--but the truth is that 75 percent of the American 
people believe that Don't Ask, Don't Tell is the wrong policy. 
Not shockingly, they are ahead of most of the military.
    Major Jones. I have to agree with you. This may surprise 
you. I disagree with Don't Ask, Don't Tell, also.
    Ms. Tauscher. Well, you disagree with it in a very narrow 
way.
    But the truth of the matter is that they understand what 
this is, that this is a policy that discriminates against good 
Americans that are qualified to serve in the military for every 
reason except for their sexual orientation. And they understand 
how wrong it is.
    And that poll says 75 percent of the American people 
believe that that law should be repealed. That says that they 
are, not shockingly, ahead of most of the military, you know, 
people like you, and they certainly are ahead of the Congress. 
And I think that it is important that we begin to listen to 
them. They understand that we need everybody in the country 
that wants to serve to be able to serve if they meet the 
qualifications.
    And, Ms. Donnelly, you used the term eligibility in a way 
that, frankly, scares me. You used the term eligibility in a 
way to discriminate, and I don't really think that that is what 
you hope to do.
    Ms. Donnelly. Actually, I am not eligible to be in the 
military because I don't suit the eligibility standards of the 
military. There is lots of people who are not eligible.
    Mrs. Davis of California. Excuse me, Mrs. Tauscher, your 
time is up. We can come back hopefully in another round.
    Mr. Shays.
    Mr. Shays. Thank you, Madam Chairman; and thank you so very 
much for allowing me to have this opportunity.
    I have been the chairman of the National Security 
Subcommittee on the Government Reform Committee, and we have 
dealt with issues about sexual misconduct in the military in 
our academies, and they dealt with heterosexual misconduct. And 
I am just struck by the fact that some of our witnesses will 
talk about misconduct as if that is the issue that they pretend 
to be focused on. But all of us agree in this room that if it 
is heterosexual misconduct, homosexual misconduct, gay 
misconduct, it would result in someone losing their command and 
being forced out of the military. So there is no argument about 
that. And then when you bring it up, when some of the witnesses 
brought it up, I just think it is somewhat scurrilous because 
it really distorts the issue.
    The issue is, if someone performs perfectly well but they 
have a different sexual orientation, should they be allowed to 
serve in the military? In my home state in Connecticut, on 
Memorial Day, we read off the names in Greenwich, Connecticut, 
of everyone who lost their life from the French and Indian War. 
I suspect some of them happened to have been gay. I don't have 
a statistic of how many. I suspect when I look at Arlington 
Cemetery some happened to be gay. I suspect--and I have a 
little more proof of this--that the first person injured in the 
Iraqi War happened to have been gay. God bless everyone who 
served.
    I think the Don't Ask, Don't Tell policy is unpatriotic, I 
think it is counterproductive. In fact, I think it is 
absolutely cruel.
    So I am going and meeting with an individual who served 
here, Jim Kolbe. He shows me that he was a river rat in 
Vietnam. I said, my God, you risked your life almost every day.
    And then I thought about myself. I was a conscientious 
objector, and I was in the Peace Corps with my wife, but I was 
deemed worthy, but he wasn't. And for nothing else I am here 
for Jim Kolbe.
    And I have to say to you, Captain, I know that every day 
you had to be afraid that you would be found out, that you 
would have lost your command, you would have been forced out of 
the service in disgrace. And, frankly, I don't care what you do 
with your partner. What I care about is what you did for your 
service to our country. God bless you. And it is just really an 
outrage I think that you even have to be here to defend your 
amazing service to our country.
    Would you please tell me, Ms. Donnelly, why I should give 
one twit about this woman's sexual orientation when it didn't 
interfere one bit with her service?
    Ms. Donnelly. I am here to talk about policy.
    Mr. Shays. Answer my question, please. You are a witness 
before us.
    Ms. Donnelly. I respect the service of Captain Darrah, 
General Coleman, Sergeant Alva, everybody who serves in the 
military.
    Mr. Shays. How do you respect their service? You want them 
out.
    Ms. Donnelly. I am standing for sound policy, Congressman. 
We can't ignore the importance----
    Mr. Shays. Can you answer my question?
    Ms. Donnelly. I am trying to answer your question.
    Mr. Shays. No. Let me make sure you know what my question 
is. My question is, what difference does it make--let me say it 
differently. How does the relationship that Captain Darrah has 
with her partner have any impact on the service as long as it 
is her own personal experience?
    Ms. Donnelly. Mr. Shays, in the military, we don't make 
policy based on individuals. We have groups of people who serve 
in conditions of little or no privacy. ``Forced intimacy'' is 
the phrase that is used in the law. That is what it is all 
about, Congressman. And it is not fair to tell young men and 
women that their feelings are going to be so disapproved of 
that they will be in violation of----
    Mr. Shays. Well, this is what I think is not fair. You 
answered my question. Now you are saying something else.
    Ms. Donnelly. I am answering your question.
    Mr. Shays. I want my time back, and I want to be clear with 
you. What you are saying is that she has no right to risk her 
life and protect fellow soldiers, sailors and Marines. You are 
saying that she has no right to serve her country because she 
happens to have a different sexual orientation than you. And I 
say, so what?
    Ms. Donnelly. Congressman, you are saying that Cynthia 
Yost, who wrote a letter to this committee, if she is assaulted 
by a group of lesbians, that----
    Mr. Shays. Then the lesbians should be let out. The 
lesbians should be let out. That is what should happen. They 
should be out immediately because of their bad conduct. Just 
like when I had my hearing and we had people, men, who were 
sexually assaulting women soldiers, they should be let out. 
Their conduct is what matters in the service.
    Ms. Donnelly. You just made my point. If you want to have 
three times as many incidents of sexual misconduct----
    Mr. Shays. We don't have three times as much. I don't know 
of any misconduct to Ms. Darrah. Do you have any misconduct, 
Ms. Darrah?
    Mrs. Davis of California. Mr. Shays, your time is up. We 
are going to move to the next----
    Ms. Donnelly. That is not what we are talking about here.
    Mrs. Davis of California. Mr. Sestak.
    Mr. Sestak. Thanks, Madam Chair.
    I don't have any--I couldn't ask it better than you did 
sir, and so I just have a few--may I make a few comments?
    There is this wonderful painting in the Pentagon right 
across from the Secretary of Defense's Office. It is a young 
service member kneeling in church with his young wife beside 
him and a young child beside him. And under it that wonderful 
saying in the Book of Isaiah where God turns to Isaiah and 
says, who shall I send? Who will go for us? And Isaiah replies, 
here am I. Send me.
    It may not be a right, but it is an equal opportunity for 
all of us to give selfless service to our Nation. I joined the 
military in 1970. I can remember on an aircraft carrier you 
didn't go below deck if you were an officer unless you had a 
master of arms with you because of the racial tensions at that 
time. And I can remember 35 or so years later having commanded 
a carrier battle group in the war in Afghanistan and watching a 
woman the first night off that dove down and saved four Special 
Forces that had been surprised by the Taliban. We worked our 
way through those racial and gender issues in those decades I 
was in the military.
    I can always remember a young man coming up to me and 
starting to tell me he was gay; and all I could think about is, 
please don't tell me, you are just too good. We knew by outside 
surveys all those years I went into combat that we had gays in 
the military. I never understood how you could come back home 
and say you don't have equal rights or equal opportunity.
    To my mind, it all began with George Washington--Sergeant 
Major, you know it well--when he gave the very first medal in 
the U.S. Army. And he says, with this little piece of purple 
ribbon, it was only to be given to an enlisted man. Because he 
wanted to demonstrate that the way to the top was open to 
everyone, unlike the Hessians and the British that we were 
fighting.
    It was brought home to me when I pulled into a country in 
the Middle East and we asked several officers to get under way 
with us. It was my first command as a young commander. And as 
these officers left one of them turned to me and said, you 
know, Captain, you treat your enlisted different than we do. 
You treat them as though they are equal to you.
    And I said, they say, yes, sir, or no, sir.
    He said, no, no, no. You treat them as if they are equal 
human beings.
    We have commanders, we have NCOs, we have chief petty 
officers in the Navy to take care of the disciplinary problems 
that my colleague from Connecticut put out. We worked our way, 
as Patrick Murphy knows and others here, through all of those 
issues because we had good leaders.
    Because, ultimately, what I found out as we went around the 
world all those decades is that we aren't born better, but we 
are different in America. And at those times where our 
character doesn't show through, potentially at a time like 
this, we somehow happen to hold up a national mirror to 
ourselves and say, that is not who we are. We are better than 
that.
    Equal human beings, that is what George Washington told the 
first enlisted. They were men at the time, white; and we worked 
our way through black and gender and now sexual orientation 
because we are better than that.
    Thank you all for your selfless service.
    Mrs. Davis of California. Thank you.
    We will go on to another round. Mr. Gingrey, would you like 
to ask a question? I was told you didn't have one.
    Dr. Gingrey. Thank you, Madam Chair. I don't have a 
question right now. Thank you very much.
    Mrs. Davis of California. All right. Thank you very much.
    Then I am going to start again, and we will try to get a 
round. I don't know how far we are going to go because we do 
have some votes coming up.
    One of the underlying issues and concerns--and I think it 
has been pretty well expressed here by everybody--number one, I 
think we know that we do put people in difficult positions in 
the services. We especially do that with the integration of 
gender. And there are issues that people face, and they face 
them every day in the services, and we all learn to live with 
that. The service members learn to live with that.
    And it is not always easy, but there are rules around it, 
and we try and enforce them as best we can. Quite honestly, I 
know that this committee is aware that we don't always do our 
best in doing that, but we really do have some regulations, and 
we need to follow them.
    But I am also sensing a concern on the part of Ms. 
Donnelly, and certainly Sergeant Major Jones, that perhaps it 
would be more harassment of homosexuals--of heterosexuals, I am 
sorry, if in fact this policy changed and that it might be 
difficult to prosecute because people would be uncomfortable 
coming forward. They perhaps would not feel that they would be 
heard from properly. And I am asking you if you believe that. 
And perhaps, Sergeant Alva, whether you are hearing that people 
are asking for different kinds of structure, a different kind 
of protection to heterosexuals or to homosexuals in order to 
have a policy that works?
    Captain Darrah.
    Captain Darrah. I would say, at the moment, the situation 
you have for a gay person, if they happen to be being harassed, 
they can't do anything.
    If a black person or a female or anyone else in the 
military, for that matter, is not being treated properly, they 
go to the chain of command and then the leadership intervenes. 
A gay person, unfortunately, is faced with the situation they 
can either go to the chain of command and complain that for 
some reason they are not being treated fairly, but if they do 
that then they will have to out themselves, and they will be 
fired.
    Mrs. Davis of California. Yes.
    General Coleman. As I was saying, prior to 1993, we didn't 
have a problem with gays in the military. We created a problem 
with Don't Ask, Don't Tell. People lived together, worked 
together, and this family performed, our Army, my Army.
    I spent most of my life in the military with my peers, 
regardless of their sexual orientation; and there were 
absolutely no problems. And I think we are obligated to improve 
military readiness by lifting the ban Don't Ask, Don't Tell.
    If I use myself as an example, if I might, as you can tell, 
I am black, I am straight. But as a 17-year old I was probably 
a day or two from a life of crime. Three of my peers ended up 
over-dosing (OD'ing); the other four ended up spending time in 
and out of jail. The Army saved me. The Army will save others. 
We just got to give them the opportunity.
    Mrs. Davis of California. Sergeant Major Jones, are you 
suggesting that perhaps people would be asking for policies 
that would protect gay men, lesbian women in the military 
differently than they would the heterosexual community?
    Major Jones. I am going give you a very honest answer, and 
I am going to base it on the experience I had as a leader in 
the Army many, many times, as many as I could find. And what 
would happen if you repeal this 1993 law would be a knee-jerk 
reaction--and we see it in the military all the time--of 
overkill. And what would happen is, as you see now, it is very 
hard to ask questions.
    And that is why you see some of the problems with the 
assaults. It is not a gang violence thing that we can fix. It 
is something that people are afraid to ask about. Even in 
investigation stages, a leader really has to be careful because 
the leader might end up being the one in trouble.
    What would happen if we lift this is you would see that the 
problem would become a lot worse. It is going to be a--there is 
going to be a whole lot of harassment. There is going to be a 
whole lot of people not understanding until they are trained.
    Mrs. Davis of California. I think one of the questions that 
has been asked is, if you believe that people are not up to 
that task, that professionalism of the service is not such that 
people can----
    Major Jones. Yes, they are up to the task. The average 
American soldier can complete any task that is assigned to him, 
and they will, because they follow the law. And you heard me 
talk about raising their right hand and taking the oath and 
following the law. Yes, they will do it.
    Is it the best thing for the military to do that? I don't 
think so. Is it going to get us more ready for what we are 
facing right now, which a lot of people in America said that we 
had failed before we started, the last buildup, going back into 
Iraq and trying to win this? We were told you are going to 
fail. We were told you did fail. In fact, we are about to win 
this.
    Mrs. Davis of California. I appreciate your response. My 
time is up. Thank you.
    Mr. McHugh.
    Mr. McHugh. Well, Madam Chair, I am not sure I have any 
more questions. I think, after having sat here for some two 
hours, I am pretty well convinced where everyone on the panel 
is on this issue. And I certainly respect all of their 
perspectives.
    I would say to Captain Darrah, because she understandably 
followed up for my question about would you have joined. I 
hope--I don't think you did, but I hope that my question didn't 
suggest in any way that there was an integration factor to your 
service. I was trying to understand how this policy would have 
affected someone like you who was affected by it ultimately had 
they had the opportunity to think about it.
    And similarly with Staff Sergeant Alva, who didn't know 
about that policy but in fact was banned under the existing law 
at that time still joined.
    So I was trying to get a perspective on that. So no 
question to disservice.
    Captain Darrah. I totally understood your question.
    And it is--as I mentioned in my statement, it is hard for 
me when I see young, energetic, patriotic gay kids that say I 
want to join the military, that would be great, and I find 
myself telling them no because I know how hard it is to try and 
pretend.
    Mr. McHugh. I understand. But, as I said, from a policy 
perspective, I am trying to understand the net effect of it.
    And I would say to General Coleman, who not just served 
during the time of desegregation but obviously lived with it, 
my question was intended to try to better recognize what 
process, if any, was implemented back in 1948 under President 
Truman's directive; and lessons learned is a big issue in the 
military and maybe find some lessons learned with respect to 
what would be required were we to change this policy.
    But let me say, after, as I mentioned, two hours, Madam 
Chair, for all of the passion--and I might say it was reflected 
at times on this panel as well, meaning this side of the dais. 
I think, if nothing else, it underscores what I tried to 
indicate in my opening comments, how difficult this decision 
is, how good people who have done amazing things can come to 
our table and give totally opposite views and underscores, in 
my judgment at least, the need to explore in a very substantive 
way the data and the other opinions that are out there in the 
Palm Center study, for example, and the polling data that is 
often cited as to why this should be accommodated and is, at 
the same time, cited as to why it should not.
    Again, to underscore my opening comments about my 
disappointment in the military services, because we have to at 
some point, I would assume, come to a decision as to whose 
opinion prevails and what is the greater good here. And with 
all due deference and respect and appreciation to this panel 
and the five individuals who have appeared here, that kind of 
waiting decision from my perspective ought to be based on a 
much broader foundation of input. And I would trust, as I again 
mentioned in my opening comments, Madam Chair, that you would 
afford us the opportunity to conduct those kinds of inquiries 
so whatever we do, whatever we do at the end of the day is the 
right thing for our men and women in uniform and, of course, 
the right thing to do as the proud Americans that I trust we 
all are.
    So again, in a closing word of appreciation to our 
panelists and the deepest thanks for their service and 
obviously their sacrifice, I will yield back.
    Mrs. Davis of California. Thank you, Mr. McHugh.
    Dr. Snyder.
    Dr. Snyder. Thank you.
    Captain Darrah, you introduced your partner. I'm sorry, 
what was her name again? .
    Captain Darrah. Lynn Kennedy.
    Dr. Snyder. How long have you been together?
    Captain Darrah. Now 17-1/2 years.
    Dr. Snyder. Does Ms. Kennedy have any comments she would 
like to make about those stresses, what it was like for her?
    Captain Darrah. Based on the last two days, she might have 
liked it better when she was not part of my life.
    Dr. Snyder. So I will take that as no, she wouldn't.
    I wanted to ask you, Ms. Donnelly, I think the only openly 
gay man that who serves in the Congress here is Chairman Barney 
Frank, the Chairman of the House Financial Service Committee. 
Barney has been adding a lot to this country, particularly 
since he has been Chairman of the Financial Services, given the 
great issues that we have facing us economically. I thought he 
would add a lot here because of his intelligence, humor and his 
great, great knowledge of these issues. It may be after hearing 
your testimony today it is because he sexualizes the 
atmosphere. And that was your phrase, ``sexualizes the 
atmosphere.'' So I want to pursue this a little bit, if I 
might.
    As I went through your list of concerns, forced 
cohabitation was one of them, your belief that there would be 
increased risk of sexual misconduct, physical abuse, you 
brought up what I thought was ill advised, but it is in your 
list, potential for HIV. Those are all issues that also would 
affect the civilian side of our government.
    We have had thousands of DOD civilians serve in Iraq. We 
have had I don't know what the total number is of folks from 
other agencies, United States Agency for International 
Development (USAID). In fact, my subcommittee has done 
hearings, and we put out a report on the whole issue of other 
civilians, Department of Agriculture, Justice, Treasury, all 
these people serving in Iraq. We had the issue of embedded 
reporters. We have had contractors from other places. And I 
just confirmed, you may have seen my whispering session with 
one of my fellows who served two tours there, when they are in 
those areas, they serve. They use the same showers. They have 
to find places for them to stay. They are treated--in terms of 
living conditions, they are in the same area.
    Based on the arguments you are giving today, is it your 
recommendation this Congress should consider banning all gays 
and lesbians for participating in overseas activities on the 
civilian side also?
    Ms. Donnelly. No, because in the civilian world people 
don't live together. They don't cohabit together.
    Dr. Snyder. So you just missed my point, didn't you, Ms. 
Donnelly? I just gave you the situation, the scenario overseas. 
They do live together. Apparently they are taking their phones 
in the shower and taking pictures.
    Ms. Donnelly. Not in the same----
    Dr. Snyder. Of course they do.
    Major Jones. Do you mind if I comment? I was a DOD civilian 
in Iraq in 2004, and I can address this.
    Dr. Snyder. Ms. Donnelly is the one who has made what I 
think is a pretty egregious argument here.
    Ms. Donnelly. I will defer to him.
    Major Jones. I have experience on that, sir, to give you 
the best answer I can possibly give.
    Dr. Snyder. Go ahead.
    Well, my question is, is it your recommendation, Sergeant 
Major Jones, that all civilians, U.S. Government civilians, who 
are gay or lesbian not be assigned overseas to Iraq or 
Afghanistan?
    Major Jones. I believe they should be able to serve 
overseas.
    Dr. Snyder. I do, too. The problem I have, then, with Ms. 
Donnelly's arguments is then it is okay, forced cohabitation 
with civilians, the risk of sexual misconduct, the risk of 
physical abuse.
    Major Jones. That is why I would like to give you my take 
on that.
    Sir, as I stated, I did serve over there in 2004 for 
Department of Defense as a military action officer. And, no, I 
did not have to shower with our civilians----
    Dr. Snyder. No, but you missed my point. What I set this up 
with, they clearly do. I mean, you may not have. I am not 
saying every civilian does, but when they go overseas, they do. 
That is the reality of the situation.
    Ms. Donnelly. Dr. Snyder, I would like to comment.
    Dr. Snyder. That is why the call it embedded reporters. 
They use the same facilities. So I agree with you. I am sure 
Ambassador Crocker does not shower with all the military guys 
as a civilian, but a significant number of them do. That is 
very clear.
    Ms. Donnelly. Dr. Snyder, Congressman Frank--I am not aware 
that Members of Congress are cohabiting with Congressman Frank. 
I don't think I would have brought----
    Dr. Snyder. We are in agreement. Ms. Donnelly, you finally 
found it. You have found something that you and I agree with. 
On that note I will end. Thank you.
    Mrs. Davis of California. Mr. Murphy.
    Mr. Murphy. Thanks, Ms. Chairwoman.
    I want to comment about Mrs. Tauscher's and Mr. Sestak's 
earlier remarks. Earlier this week is the 60th anniversary of 
the Executive Order of President Truman, and you think that 
when--we desegregated the Army when half of our country was 
still segregated, and really the powerful thing that was when 
there was a lot of social tensions obviously were there when 
that decision was made. And Ms. Donnelly mentioned it was a 
civil rights issue, but also, as you mentioned, a military 
necessity why he made that decision.
    I would like to point to the fact that since we implemented 
the Don't Ask, Don't Tell policy in our military, there have 
been 12,000 servicemen and women who have been forced to 
chapter out of the military; since 9/11, a combat brigade, 
3,500, specifically 58 Arabic speakers, which they could be on 
the ground right now in Iraq or Afghanistan producing vital 
intelligence that would help us win the war on terror.
    When I was in Iraq with the 82nd Airborne Division, my men 
did not care if you were gay or straight. They just wanted to 
get the mission done and come home alive.
    So, you know, I would like to direct this first to Ms. 
Donnelly. What would be the greater threat to a national 
security military necessity, leaving a terrorist document 
untranslated or having a gay soldier fight alongside a straight 
one?
    Ms. Donnelly. In order to have the documents translated, we 
need to have the Defense Language Institute training people 
eligible--who are eligible to be in the Armed Forces----
    Mr. Murphy. There were 58 that actually were trained, and 
they were put out of the military.
    Ms. Donnelly [continuing]. About who is the best linguist, 
by the way. We need people who are good linguists, but not 
necessarily should they be gay. I mean, that is a stereotype.
    Mr. Murphy. Ms. Donnelly, come on, let us be straight here. 
Let us be straight here. That is what the American people want. 
The fact is when we talk about military necessity, we are in 
desperate need of more troops in Iraq, and especially in 
Afghanistan. And we have let go 12,000 American men, women, 
soldiers, not for sexual misconduct, but because of their 
sexual orientation. Fifty-eight of those are translators.
    Now, I tell you, if we are still running convoys over 
there, I wish we had more translators. We are in desperate need 
of Arabic speakers, and we don't have enough of them. It is a 
military necessity.
    Would you not agree that we have more troops right now in 
Iraq than Afghanistan?
    Ms. Donnelly. We need to find those linguists, and the 
State Department is already working with that. I come from 
community with a very large Arabic American community. There 
are lots of things that can be done. But the number of 
discharges, if you see this attached to my testimony, the 
smallest column is the discharges for homosexuality, pregnancy, 
weight standards, other kinds of things far more. But you could 
reduce this number to zero or near zero if the Department of 
Defense dropped Don't Ask, Don't Tell and enforced the law 
properly. We should not be training people who are not eligible 
to be in the Armed Forces. It is a very simple principle.
    Mr. Murphy. I understand your point that they shouldn't 
belong in Armed Services, and we are going to have a 
fundamental disagreement on that, but I would like to restate 
that there is a military necessity right now to keep our Nation 
safe, and it is a detriment to our national security the fact 
that we are discriminating against people for openly serving in 
our military when there are already rules in place to address 
sexual misconduct, whether it is homosexual misconduct or 
heterosexual misconduct, as compared to your orientation.
    I would like to mention also when you talk about military 
necessity that, Sergeant, I think you would agree, we need more 
soldiers in our military, and Army, and our Navy as well, and 
the Marine Corps, especially when you look at the rapid amount 
of deployments, the fact that the divorce rate is as high as it 
has ever been. And the suicide rate in 2007 is the highest it 
has ever been. We need help, and we need more good people, 
whether they are gay or straight, to join our military and to 
serve honorably.
    Ms. Donnelly. As a daughter of a submariner, do you think 
that there would be more people to join the submarine force if 
they know that professed homosexuals would be on submarines? I 
don't think so.
    Mr. Murphy. Well, you and I would agree, I have faith in 
those 18- or 19-year-olds. You asked me a question, I want to 
answer it. Usually it comes from the other side of the dais. 
But the fact is that I have a lot of respect for the 18- or 19-
year-old heroes, the best of the best that join our military, 
and the fact that I have faith in them, as the commander said 
before, the fact is I can grab a paratrooper in the 82nd 
Airborne Division and say, listen, soldier, paratrooper, you 
are going to run that space shuttle in one week, you better 
learn to you to fly that thing. By golly, that paratrooper will 
find out a way to make that happen.
    The fact is that we are--President Truman had faith in the 
American people and our men and women in uniform. He said, I 
don't care if you are black or white, you wear green in the 
Army. That is what we need right now.
    The fact is, Sergeant Major, when you were a Ranger, and 
thank you again for your service, you probably weren't happy 
when General Shinseki said, hey, Rangers, you are not wearing a 
black beret anymore, you have to wear a tan one. I know I 
wasn't happy about it, but hey. You just salute, and you 
execute those orders.
    We need to have faith in our young American men and women 
who do the right thing on behalf of equality in our 
Constitution and what America is all about. I see my time is 
up, Chairwoman. I thank you for my time.
    Mrs. Davis of California. Thank you, Mr. Murphy.
    Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you.
    I would like to point out that I grew up in a household 
that both my parents were conservative Republicans and Roman 
Catholics. And I grew up with a wonderful attitude, I think, of 
loving and accepting everybody. My mother was working in a 
naval hospital and worked with a lot of Navy corpsmen, and that 
was her first experience with people who were actually ``out.''
    All of my early experience with these issues is one of 
understanding that these were all people of great worth and 
dignity. And I am grateful to my conservative Republican 
parents for teaching me that, that we are all God's children.
    We have a lot more to worry about right now. We have wars 
going on. We have a shortage, as my colleague pointed out, of 
good military people who are entering the service at this time. 
I have been in Iraq twice. I was very concerned in March when I 
went there and found out that our gates are being guarded by 
Ugandan contractors instead of American soldiers. I think maybe 
we better question them to find out who they are and what they 
think, because we need American soldiers, good American 
soldiers, to step up for this country.
    I have also, as I said, been to Iraq twice. I have been on 
aircraft carriers. I have sat with men on submarines. I have 
been on Coast Guard cutters. When I say, what is on your mind, 
nobody has said that. So that tells me maybe anecdotally these 
are the men and women serving our country, and that is not the 
number one issue, I can assure you that.
    So I just want to say in closing that while I am 
appreciating your perspective here, and certainly very grateful 
for your service--and I think you indicate that you are the 
daughter of a military man; did I hear that right?
    Ms. Donnelly. Yes.
    Ms. Shea-Porter. And I thank you, because, as I pointed 
out, we really have to think about what is best for this 
country and how do we best respect individuals who want to 
serve this country. And I think you have heard the answer 
pretty loudly and clearly here that those of us who have the 
great opportunity to see the men and women who serve this 
country know that we have really difficult issues, and we 
should not divide ourselves. We should not split ourselves, and 
we should not attack each other for something that--when I 
asked you when did you decide to be a heterosexual, something 
that really is just is not a choice, it is just who we are. We 
need to embrace who we are, who we really are, Americans 
wanting to serve our Nation.
    Thank you, and I yield back.
    Mrs. Davis of California. Thank you.
    Mrs. Boyda.
    Mrs. Boyda. Thank you, Madam Chairwoman.
    I would just like to associate myself with the remarks of 
Mr. McHugh. I think this has been a very interesting and 
helpful hearing. It has been people's stories, their feelings, 
opinions. And while it has been interesting, I would like to 
see a little bit more just hard data on what is going on, a few 
things that we could--again, interesting anecdotes, but 
generally what we are talking about today are people's opinions 
and feelings. I would love to see that as we get into this 
issue more.
    Mr. Jones, I would like to ask you a question, and I really 
don't have an agenda with this. I am curious about something.
    Major Jones. Okay.
    Mrs. Boyda. I will assume--and maybe I am wrong on this--I 
assume that you think that homosexuality is immoral?
    Major Jones. No. I am not saying that at all. As I said, as 
the good Congresswoman just pointed out, you can't help the way 
you are made and you are born. If I were 6-foot-8 and I wanted 
to be a pilot in the Air Force, I couldn't because I am too 
tall.
    Mrs. Boyda. Let me ask you a question. Maybe this is 
hypothetical. If we had somebody who is a first sergeant, a 
staff sergeant, sergeant major, and they did believe, do you 
think--I thought--what I was going to ask you is do we think 
our NCO officers, as well as our other officers--do you think 
they are well just not--if they do really feel like this is 
just terribly, terribly wrong, that they are not going to be 
able to do their function?
    Major Jones. The reason I am here, and what I believe is 
true across the Armed Forces, it comes to a question of what is 
best for our Nation right now, what is best for our Armed 
Forces, especially at a time now when they are in a fight for 
us. And I think the timing is bad. I really think the timing is 
bad. I feel like we are sitting here discussing an issue that I 
believe we could be sitting here discussing things that are a 
lot more important.
    Mrs. Boyda. Let me clarify. If this were in a different 
time, then you would be okay with getting rid of Don't Ask, 
Don't Tell?
    Major Jones. I can't answer for that different time, 
because I can't see in the future. What I can see is where we 
are today and what our military men and women are facing. And I 
understand that. And I think a lot of Americans, if you haven't 
really spent a lot of time in the military in a lot of 
leadership positions, they just really don't understand; the 
American people don't understand what you are asking the 
military to do, the Armed Forces people across the board.
    Mrs. Boyda. So to clarify, it sounds as if what I hear you 
saying is that this is really about not the policy, it is just 
about implementing this change, because it is a change.
    Major Jones. No, change is good, but you have to pick the 
right change for the right time. I have seen it too many times 
where the timing has been bad in the military, they are asked 
to do something----
    Mrs. Boyda. I am trying to clarify again. You are more 
concerned about the timing of this than the actual policy 
itself is what it sounds like, or are you saying that this is 
because the time. If we were in a different time, and I would 
like to envision that we are going to be in a different time--I 
am glad the military, thank God they are here to serve the 
country, but at some point I would like that we would find some 
stability.
    Major Jones. You are asking me to answer a question about 
what I am going to feel about something in the future.
    We heard the captain. She didn't know she was homosexual 
until later on in her Navy career. So if you had asked her that 
on day 1, she couldn't say, oh, yeah, I am going to be straight 
in 10 years. She couldn't. And that is what I am trying to 
express to you now. I couldn't know where I am going to stand 
on this 10 years from now. But today I think--put it to you 
this way. I am very--I am kind of baffled that we are sitting 
in here today with this issue being this hot when we need to be 
finding ways in supporting our troops and figuring out how we 
are going to win this war in Iran, in Afghanistan and Iraq as 
soon as possible, and as efficiently as possible. I think that 
is where we should be concentrating.
    Like I was trying to say a little bit earlier is that you 
really don't know what you are asking the American Armed Forces 
to do, but when you put such a huge policy change or a law 
change into action as this would be on the repercussions of 
that, what are those repercussions going to be?
    Mrs. Davis of California. Thank you, Mr. Jones. We will 
move on.
    Mrs. Tauscher.
    Ms. Tauscher. Sergeant Major Jones, I don't want you to 
think that this 2 hours and 20 minutes that we have spent on 
this issue is time that we are not spending as we do every day, 
working very hard for the American people. I am a Chairman on 
Armed Services. I Chair the Strategic Forces Subcommittee. We 
have $50 billion of defense programs, all the nuclear weapons-
based intelligence, classified military intelligence programs. 
We have hearings all the time.
    Major Jones. Yes.
    Ms. Tauscher. And we are good multitaskers. We can actually 
do more than one thing at a time.
    Major Jones. I understand that.
    Ms. Tauscher. But after 15 years of not talking about this, 
I certainly don't think that this is a waste of time to have 
this hearing today.
    Major Jones. I didn't mean to come across that way.
    Ms. Tauscher. We appreciate you being here, but, once 
again, this is about having the most perfect union. We have 
constitutional responsibilities given to us by the Founding 
Fathers, with good women, I assume, standing right behind them, 
making sure that we have--the American people are making clear 
what kind of military they want. And that is a lot what this is 
about. And I do believe that this is the last frontier of civil 
rights opportunities we have in this country, that we have 
figured out how to deal with racial integration, gender 
integration, and that this is the last frontier. And this is a 
special thing, our United States military.
    Major Jones. Yes.
    Ms. Tauscher. A little overused now, not appreciated as 
much as it might have been. When the decision was made to go 
into Iraq, lots of people serving multiple tours, lots of needs 
for different skills. As my colleague Mr. Murphy said, 12,000 
people separated. That is a lot of people, a lot of skills to 
be separated. And we have to make sure that the military not 
only has everything it needs, has our respect, has our support, 
but it also reflects American society and values. And that is 
why the aspiration for the most perfect union has always 
resided in the military. You are not going to be surprised to 
find out that the best child care in the world is in the 
American military.
    Major Jones. Yes, I am not surprised.
    Ms. Tauscher. Racial integration, as General Coleman said, 
started in the military. We are not perfect on gender, we are 
working it hard, but there is a special reason why we want to 
be sure.
    And, Ms. Donnelly, you have never really been for American 
women serving in combat, and now you are not for this. And I 
really think that what we need is to find a way to make sure 
that we have the strongest American military, and that means 
that we cannot have people that are well qualified to serve 
that are eligible except for anything other than their sexual 
orientation. We have plenty of laws in the UCMJ that say that 
people that are aggressive, that are predatory, they are 
assaulting types of people, are going to get adjudicated----
    Ms. Donnelly. Please----
    Ms. Tauscher [continuing]. Whether they are straight--
excuse me, I am not asking a question--whether they are 
straight or gay. And it is mystifying to me what the real 
opposition is that you have.
    I want to ask Sergeant Alva, in his testimony Sergeant 
Major Jones talks about experiences in Somalia in 1992. You 
were there, too, weren't you?
    Sergeant Alva. Yes, ma'am. I lived in the stadium.
    Ms. Tauscher. Do you believe the presence of openly gay 
soldiers would have compromised that mission in Somalia?
    Sergeant Alva. Not at all. And just as in Iraq, I had 
confided in several of my marines in my platoon that I was gay. 
And we made several trips to the port, and the airfield, and 
riding in a Humvee on a security patrol, whether I was in the 
front or rear of that security patrol, and that marine was with 
me. Our job was to make sure that convoy made it to the port 
with any conflicts.
    As we saw early in Somalia in 1993, there weren't that many 
conflicts arising until late in 1993. But we did live amongst 
each other, we slept--the stadium was pretty full with 3,000 to 
5,000 Marines and Navy trying to live together. Some of our 
cots were touching each other. We didn't have portable showers 
like they do in Iraq as today. They were built out of plywood 
and makeshift hoses that were made as our showers. Everybody 
was there to do a job, regardless of how someone showered or 
slept had nothing to do with it. It was there to make sure we 
all finished the mission and came home.
    Ms. Tauscher. Do you think it is appropriate, Captain 
Darrah, to characterize anybody's work environment as 
sexualized? Do you think people go to work thinking about, I am 
too tired, frankly, to think about anything about going to 
work, but I do think that because there are gay or lesbians in 
a work environment that the work environment becomes 
sexualized, as Ms. Donnelly wants us to believe?
    Mrs. Davis of California. Mrs. Tauscher, I am going to 
let--Mr. Shays, if it is all right on your time, can they 
answer that, and then we will go to you. It will be part of 
your time. Is that okay?
    Mr. Shays. I would like to ask my questions.
    Mrs. Davis of California. I am being very strict, as you 
can see, but we also have votes coming up. But I would actually 
like to hear the answer to her question.
    Mr. Shays.
    Mr. Shays. If you want to have her answer.
    Mrs. Davis of California. I am going to put it under your 
time.
    Mr. Shays. I am sorry, I didn't hear the question. I am 
still wrestling with anyone in this panel saying, I don't 
understand why we are having this hearing. I could give you a 
lot of reasons. Sergeant Alva is one reason. He lost his leg. 
He will never have his leg back. And he risked his life for 
everyone in this room, and we are asking why are we having this 
hearing. He is serving in the military; I am not. We know that 
gays have served in every conflict in our country. They served 
in every war, and we know that gays have given their lives for 
everyone in this room.
    So, Sergeant Jones, that is why we are having this hearing, 
because gays have given their lives in service to our country, 
and you and every one of us has benefited from their service. 
That is why we are having this hearing.
    Major Jones. Sir, I am not denying that.
    Mr. Shays. We are having this hearing because we are trying 
to determine by not allowing gays to serve, are we losing the 
advantage of a whole group of people who could help make this 
country safer and better? That is why we are having this 
hearing. We are having this hearing because when we go to Iraq 
and we visit with all the men and women who have served, who 
are serving like Mr. Alva, some may be gay, and they fear they 
may be killed by the enemy, and they also fear that they may be 
forced out of the military by their own government. That is why 
we are having this hearing.
    The amazing thing is when I go to Walter Reed Hospital or 
Bethesda to talk to the men and women who have been brutally 
damaged by the war, and they don't have a limb, and they say to 
me, sir, I can't wait to get back to my comrades, my buddies; I 
want to come home with them when they leave Iraq or when they 
leave Afghanistan. The spirit that is in these people is just 
unbelievable. That is why we are having this hearing.
    We are having this hearing because do we think that maybe 
all Americans should be allowed to serve their country if their 
service is exemplary and in no way impacts on their conduct 
while in the military? That is why we are having this hearing.
    I had someone tell me, you better not come to that hearing 
because there will be some people who will object to you 
feeling that maybe gays should be allowed to serve in the 
military as long as their conduct is exemplary. I thought, you 
know what? There are probably millions of people who require me 
to be here because they gave their life for their country and 
they were gay. That is why we are having this hearing.
    Mrs. Davis of California. Thank you, Mr. Shays.
    In following up with the last question, you have a few more 
minutes, I think the question was whether the environment has 
become so sexualized that people are not able to function.
    Captain Darrah. I mentioned when I was the deputy and chief 
of staff of the Naval Intelligence Command, I had about 400 
military and about 1,100 civilians and contractors. The 
civilians, I had several openly gay civilians. We all worked 
together. Everybody was judged on their performance and their 
ability, and there was no problem at all.
    Mrs. Davis of California. Thank you.
    We have come to the end of the hearing, and I really 
appreciate all of you being here sincerely, and for all of you 
who have served our country so admirably, thank you very much. 
We appreciate that, and certainly the work that you have all 
put in. And I know, Ms. Donnelly, you spent years looking at 
this issue, and we appreciate that effort as well.
    You know, I sat at the service this afternoon commemorating 
the 60th anniversary of the integration of the troops, and even 
though I know people perhaps critique the idea of whether this 
is the same situation that we are talking about, and I happen 
to think it is a very important right that we are talking 
about, I couldn't help but just change some of the words that 
were being stated about how important it is for us to have 
equal treatment under the law. I know everybody who was there 
felt the same way.
    I have been concerned by some of the discussion, because 
there has been a sense that somehow if this policy is changed, 
we will it will be an atmosphere where anything goes, and I 
question that wholeheartedly. I think we do have laws and 
policies in this country that demand that people act 
appropriately. They don't always. We know that, we are 
realistic. And yet we need to be certain that we develop the 
leaders who are able to hold people accountable, and I think 
that is also what this has been about.
    And so we look to more conversations. As we said quite 
publicly, this is starting a conversation. It is a conversation 
that hasn't been held for a lot of years. It is a different 
time. We are in the middle of two wars, and I totally 
appreciate your concerns, Sergeant Major, that maybe this isn't 
the best time, but I think you have to ask when is the best 
time? And is this not the best time, because we have men and 
women today who are on three and four and five deployments who 
don't even know their children anymore. That is wrong. And this 
won't solve that problem. But when you have men and women who 
want so badly to serve and to serve openly and honestly, then I 
think we have to at least listen to what that change in policy 
could bring about.
    So we know this is the beginning of the conversation. We 
know that hopefully there will be other hearings. We absolutely 
want the Department of Defense to be here. I would hope that 
they would help us out with the operational issues as they see 
them or don't see them, but that we can have those 
conversations in the future, too. And I thank you very much for 
being here. And I thank the audience also for your demeanor. 
Thank you very much.
    [Whereupon, at 4:35 p.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                             July 23, 2008
      
=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 23, 2008

=======================================================================
      
    [GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]
      
=======================================================================

                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 23, 2008

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]

    
                                  <all>

</pre></body></html>
